<html>
<title> - STRENGTHENING TRANSPARENCY AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     STRENGTHENING TRANSPARENCY AND
                ACCOUNTABILITY WITHIN THE ENVIRONMENTAL
                           PROTECTION AGENCY

=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

                           Serial No. 113-54

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

86-892 PDF                      WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001   
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
CHRIS COLLINS, New York

                            C O N T E N T S

                           November 14, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

                               Witnesses:

The Honorable Gina McCarthy, Administrator, Environmental 
  Protection Agency
    Oral Statement...............................................    12
    Written Statement............................................    15

Discussion.......................................................    20

             Appendix I: Answers to Post-Hearing Questions

The Honorable Gina McCarthy, Administrator, Environmental 
  Protection Agency..............................................    68

            Appendix II: Additional Material for the Record

Submitted statement for the record by Representative Elizabeth H. 
  Esty, Member, Committee on Science, Space and Technology.......   134

Report submitted by Representative Dana Rohrabacher, Member, 
  Committee on Science, Space and Technology.....................   136

Letter submitted by Representative Randy Neugebauer, Member, 
  Committee on Science, Space and Technology.....................   146

Letters submitted for the record by Representative Mark Takano, 
  Member, Committee on Science, Space and Technology.............   149

 
             STRENGTHENING TRANSPARENCY AND ACCOUNTABILITY

               WITHIN THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       TUESDAY, NOVEMBER 14, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Welcome everyone to today's 
hearing titled Strengthening Transparency and Accountability 
Within the Environmental Protection Agency. I am going to 
recognize myself for five minutes for an opening statement, and 
then I will recognize the Ranking Member for hers.
    The Environmental Protection Agency, like every other 
governmental institution, should answer to the American people. 
Everyone agrees that we need to protect the environment, but we 
should do so in a way that is open and honest. Democracy 
requires transparency and accountability.
    Yet EPA's justifications for its regulations are cloaked in 
secret science. It appears the EPA bends the law and stretches 
the science to justify its own objectives.
    Americans impacted by the Agency's regulations have a right 
to see the data and determine for themselves independently if 
these regulations are based on sound science or a partisan 
agenda. The EPA's efforts to expand its regulatory reach across 
the U.S. represent a troubling trend.
    For example, take EPA's current attempt to redefine its 
jurisdiction under the Clean Water Act. It seeks to expand the 
definition of Waters of the U.S. to give the Agency 
unprecedented new authority over private property.
    According to media reports, this expansion of EPA 
regulatory power could include almost all man-made and natural 
streams, lakes and ponds in the U.S. This undermines states' 
rights and increases Federal control of private property and 
could lead to the EPA telling us what to do in our own back 
yard.
    The EPA's efforts to demonize hydraulic fracturing are 
another example of an Agency implementing a partisan agenda 
before it takes the time to get the facts. The EPA made wild 
claims of groundwater contamination but was forced to retract 
those claims when it could produce no evidence. Perhaps the 
most worrisome examples of the Agency's disregard for 
transparency and accountability are found in the EPA's Clean 
Air Program.
    We all agree that ensuring clean air is essential, but the 
EPA has a responsibility to establish rules that balance our 
environmental concerns and our economic needs.
    Nearly all of this Administration's air quality regulations 
are justified on the basis of hidden data. These regulations 
cost billions of dollars but the EPA claims that the benefits 
of these rules justify the costs. These claims can't be 
verified if the EPA uses secret science.
    More than two years ago, before this Committee, then 
Assistant Administrator McCarthy said this information was 
available for independent review and verification. And a few 
months ago, the President's own Science Advisor took the same 
position. When the EPA failed to live up to those commitments, 
the Committee issued a subpoena requiring the Agency to produce 
the data. Three months later, the Agency still hasn't provided 
the data necessary to verify the Agency's claims.
    Let me be clear: It is the EPA's responsibility to ensure 
that the science it uses is transparent and that its claims can 
be verified independently.
    Recently, the EPA provided us with copies of letters it 
received from scientists explaining why they believe this data 
cannot be released to the public. It is unfortunate that it 
took us two years and a subpoena to get here, but now even the 
EPA knows the truth: The Agency itself cannot publicly verify 
its own claims.
    So not only do we have a lack of transparency, we have an 
Agency that is regulating without the facts to back up its 
claims.
    We need to know whether the Agency is telling the truth to 
the American people. The EPA must either make the data public 
or commit to no longer use secret science to support its 
regulations. Without this, Congress will have no choice but to 
prohibit the EPA's use of secret data moving forward.
    I will introduce legislation in the next few weeks that 
will stop the EPA from basing regulations on undisclosed and 
unverified information.
    We can and should continue to look for ways to protect our 
environment. But these efforts must be open, transparent and 
based on sound science. Only then can the American people 
decide whether the costs of EPA's regulatory agenda is 
supported by the facts.
    [The prepared statement of Mr. Smith follows:]
             Prepared Statement of Chairman Lamar S. Smith

    The Environmental Protection Agency (EPA), like every other 
governmental institution, answers to the American people. Everyone 
agrees that we need to protect the environment, but we should do so in 
a way that is open and honest. Democracy requires transparency and 
accountability.
    Yet EPA's justifications for its regulations are cloaked in secret 
science. It appears the EPA bends the law and stretches the science to 
justify its own objectives.
    The Americans impacted by the Agency's regulations have a right to 
see the data and determine for themselves independently if these 
regulations are based on sound science or a partisan agenda. The EPA's 
efforts to expand its regulatory reach across the U.S. represent a 
troubling trend.
    For example, take EPA's current attempt to redefine its 
jurisdiction under the Clean Water Act. It seeks to expand the 
definition of ``Waters of the U.S.'' to give the Agency unprecedented 
new authority over private property.
    According to media reports, this expansion of EPA regulatory power 
could include almost all man-made and natural streams, lakes and ponds 
in the U.S. This undermines states' rights and increases federal 
control of private property and could lead to the EPA telling us what 
to do in our own back yard.
    The EPA's efforts to demonize hydraulic fracturing are another 
example of an Agency implementing a partisan agenda before it takes the 
time to get the facts. The EPA made wild claims of groundwater 
contamination, but was forced to retract those claims when it could 
produce no evidence. Perhaps the most outrageous examples of the 
Agency's disregard for transparency and accountability are found in the 
EPA's clean air program.
    We all agree that ensuring clean air is essential, but the EPA has 
a responsibility to establish rules that balance our environmental 
concerns and our economic needs.
    Nearly all of this Administration's air quality regulations are 
justified on the basis of hidden data.
    These regulations cost billions of dollars but the EPA claims that 
the benefits of these rules justify the costs. These claims can't be 
verified if the EPA uses secret science.
    More than two years ago, before this Committee, then Assistant 
Administrator McCarthy said this information was available for 
independent review and verification. And a few months ago, the 
President's own Science Advisor took the same position.
    When the EPA failed to live up to those commitments, the Committee 
issued a subpoena requiring the Agency to produce the data. Three 
months later, the Agency still hasn't provided the data necessary to 
verify the Agency's claims.
    Let me be clear: It is the EPA's responsibility to ensure that the 
science it uses is transparent and that its claims can be verified by 
the public.
    Recently, the EPA provided us with copies of letters it received 
from scientists explaining why they believe this data cannot be 
released to the public. It's unfortunate that it took us two years and 
a subpoena to get here, but now even the EPA knows the truth: the 
Agency itself cannot publicly verify its own claims.
    So not only do we have a lack of transparency, we have an Agency 
that is regulating with reckless abandon and without the facts to back 
up its claims.
    We need to know whether the Agency is telling the truth to the 
American people. The EPA must either make the data public, or commit to 
no longer use secret science to support its regulations. Without this, 
Congress will have no choice but to prohibit the EPA's use of secret 
data moving forward.
    I will introduce legislation in the next few weeks that will stop 
the EPA from basing regulations on undisclosed and unverified 
information.
    We can and should continue to look for ways to protect our 
environment. But these efforts must be open, transparent and based on 
sound science. Only then can the American people decide whether the 
costs of EPA's regulatory agenda is supported by the facts.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, is recognized 
for her opening statement.
    Ms. Johnson. Thank you very much, and good morning. I am 
very pleased to welcome Administrator McCarthy to today's 
hearing. She has had a distinguished record at the 
Environmental Protection Agency prior to her being selected to 
be EPA Administrator. And by all accounts, she has been doing 
an exemplary job since assuming the position.
    While I think her record of performance and her integrity 
speaks for themselves, I thought it was important to review the 
mission of the Agency. First, the mission of EPA is to protect 
human health and the environment. As someone who worked in 
public health before I entered politics, I can think of no 
mission of the Federal Government that is more important or 
noble than that. As a Member of Congress, I think I should be 
doing all I can to encourage EPA as it attempts to carry out a 
very challenging mission. I think too often EPA is made a 
target for funding cuts and its leadership subjected to 
harassment and denigration. Unfortunately, our own Committee 
has not been immune from employing these tactics.
    Mr. Chairman, I am a Texan. From birth to death, I am a 
Texan, and I am no stranger to the oil and gas industries and 
the economic benefits they can bring or to the pollution and 
health and environmental impacts those industries can also 
bring. I know that EPA's actions have consequences for 
companies that sometimes are negative. However, I also know 
that EPA's actions have important consequences for the health 
of our constituents, especially those who are young, infirmed 
or elderly. And those consequences have been very positive 
indeed over the 40 years that EPA has been in existence.
    We all want a healthy economy, but we also want a healthy 
quality of life for our citizenry. And EPA's efforts have 
played a critical role in achieving both these goals since its 
inception.
    As Members of Congress, I think we should strive to educate 
our constituents, not scare them. I hope today I can resist the 
temptation to try for provocative sound bites for my district 
and instead use today's hearing to better understand what EPA 
has been tasked to accomplish, how it is doing on those tasks 
and how we in Congress can help it to do its job more 
effectively.
    Administrator McCarthy, I know you have a very tough job, 
and I want to commend you for your willingness to take it on in 
spite of all the hurdles that you and your Agency face. I look 
forward to your testimony, and I look forward to working with 
you to help EPA achieve the goals that the Nation has asked us 
to carry out.
    I thank you and yield back my time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I am very pleased to welcome Administrator McCarthy 
to today's hearing. She had a distinguished record at the Environmental 
Protection Agency prior to her being selected to be EPA Administrator, 
and by all accounts she has been doing an exemplary job since assuming 
that position.
    While I think her record of performance and her integrity speak for 
themselves, I thought it important to review the mission.
    First the mission of the EPA is to ``protect human health and the 
environment.'' As someone who worked in public health before I entered 
politics, I can think of no mission of the federal government that is 
more important or noble than that. As a Member of Congress I think I 
should be doing all that I can to encourage EPA as it attempts to carry 
out a very challenging mission. I think, too often EPA is made a target 
for funding cuts and its leadership subjected to harassment and 
denigration. Unfortunately, our own Committee has not been immune from 
employing such tactics.
    Mr. Chairman, I am a Texan from birth to death, and I'm no stranger 
to the oil and gas industries and the economic benefits they can 
bring--or to the pollution and health and environmental impacts those 
industries can also bring. I know that EPA's actions have consequences 
for companies that sometimes are negative. However, I also know that 
EPA's actions have important consequences for the health of our 
constituents--especially those who are young, infirm, or elderly. And 
those consequences have been very positive indeed over the forty-odd 
years that EPA has been in existence. We all want a healthy economy, 
but we also want a healthy quality of life for our citizenry--and EPA's 
efforts have played a critical role in achieving both those goals since 
its inception.
    As Members of Congress, I think we should be strive to educate our 
constituents, not scare them. I hope today I can resist the temptation 
to try for provocative ``sound bites'' for my district, and instead use 
today's hearing to better understand what EPA has been tasked to 
accomplish, how it is doing on those tasks, and how we in Congress can 
help it to do its job more effectively.
    Administrator McCarthy, I know you have a very tough job, and I 
want to commend you for your willingness to take it on in spite of all 
the hurdles that you and your agency face. I look forward to your 
testimony, and I look forward to working with you to help EPA achieve 
the goals that the nation has asked us to carry out.

    Chairman Smith. Thank you, Ms. Johnson. Members who have 
opening statements can submit them for the record, and they 
will appear at this point.
    [The information follows:]
    Chairman Smith. Our witness today is The Honorable Gina 
McCarthy, Administrator of the Environmental Protection Agency. 
Prior to her appointment as Administrator, she was the 
Assistant Administrator for EPA's Office of Air and Radiation 
where she advocated to protect public health and the 
environment. During her career, which spans over 30 years, she 
has worked at both the state and local levels on environmental 
issues and helped coordinate policies on economic growth, 
energy, transportation and the environment.
    Administrator McCarthy received a bachelor of arts degree 
in social anthropology from the University of Massachusetts and 
a master's of science and environmental health, engineering and 
planning from Tufts University.
    At this time I will yield to the gentlewoman from 
Connecticut, Ms. Esty, for additional comments.
    Ms. Esty. Thank you, Chairman Smith and Ranking Member 
Johnson for holding today's hearing on the Environmental 
Protection Agency. I am very pleased to welcome Administrator 
Gina McCarthy who served as Commissioner of Connecticut's 
Department of Environmental Protection and then as Assistant 
Administrator of the U.S. EPA.
    Administrator McCarthy, it is wonderful to see you again. 
Congratulations on your confirmation. You have an important 
role and responsibility as head of an agency charged with 
protecting the environment and the public's health. I 
appreciate all of your hard work to that end, and we are very 
proud of you in Connecticut and very pleased to see you here 
today.
    Thank you so much.
    Chairman Smith. Thank you, Ms. Esty. Administrator 
McCarthy, we welcome your testimony, and please proceed.

           TESTIMONY OF THE HONORABLE GINA MCCARTHY,

         ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Good morning, Chairman Smith, Ranking Member 
Johnson, and--oh, I am so sorry. Good morning, Chairman Smith 
and Ranking Member Johnson, other distinguished Members of the 
Committee. I am pleased to be here to talk about the central 
role that science plays at the United States Environmental 
Protection Agency.
    Let me begin by stating that science is and always has been 
the backbone of the EPA's decision-making. The Agency's ability 
to pursue its mission to protect human health and the 
environment depends upon the integrity of the science upon 
which it relies. I firmly believe that environmental policies, 
decisions, guidance, and regulation that impact the lives of 
all Americans must be grounded, at the most fundamental level, 
in sound, high quality, transparent, science.
    Because we rely so heavily on science to meet our mission 
on behalf of the American people, it must be conducted in ways 
that are transparent, that is free from bias and conflict of 
interest and of the highest quality, integrity, and 
credibility. These qualities are important not just within our 
own organization and the Federal Government, but across the 
scientific community, with its long-established and highly 
honorable commitment to maintaining strict adherence to ethical 
investigation and research. That is why the agency has 
established and embraced a Scientific Integrity Policy that 
builds upon existing Agency and government-wide policies and 
guidance documents, explicitly outlining EPA's commitment to 
the highest standards of scientific integrity. And that 
commitment extends to any scientist or organization who wishes 
to contribute to our efforts. All EPA-funded research projects, 
whether they are conducted by EPA scientists or outside 
grantees or collaborators, must comply with the Agency's 
rigorous quality assurance requirements.
    To ensure we have the best possible science, we are 
committed to rigorous, independent peer review of the 
scientific data, the models and analyses that support our 
decisions. Peer review can take a number of forms, ranging from 
external reviews by the National Academy of Sciences or the 
EPA's federal advisory committees to contractor-coordinated 
reviews.
    Consistent with OMB's guidance, we require peer review of 
all EPA research projects and for all influential scientific 
information and highly influential scientific assessments.
    Among the external advisory committees is the EPA's Science 
Advisory Board. Our SAB reviews are conducted by groups of 
independent non-EPA scientists with the range of expertise 
required for that particular advisory topic. We invite the 
public to nominate experts for the SAB panels and to comment on 
candidates being considered by the EPA for SAB panels. The EPA 
evaluates public comments and information submitted about SAB 
nominees. The EPA's review experts' confidential financial 
information is available to ensure that there are no conflicts 
of interest.
    SAB peer reviews are conducted in public sessions in 
compliance with the open-government requirements of the Federal 
Advisory Committee Act. The public is invited to send and to 
provide oral and written testimony for consideration by the 
SAB. Public comments help to ensure that all relevant science 
and technical issues are available to the SAB as it reviews the 
science that will support our environmental decisions.
    Another example of how well we do science and maintain our 
integrity is the Clean Air Scientific Advisory Committee which 
provides independent advice to the EPA Administrator on the 
science that supports EPA's National Ambient Air Quality 
Standards. The CASAC reviews the EPA's Integrated Science 
Assessments which deliver science in support of the Clean Air 
Act.
    Through a transparent and open process, we have also 
committed to enhancing the Agency's Integrated Risk Information 
System assessment program. A strong, scientifically rigorous 
IRIS Program is of critical importance, and the EPA is in the 
process of enhancing the scientific integrity of assessments, 
enhancing the productivity of that Program and increasing 
transparency so that issues are identified and debated early on 
in the process. In 2009, the EPA made significant enhancements 
to IRIS by announcing a new 7-step assessment development 
process. Since that time, the National Research Council has 
made recommendations related to enhancing the development of 
the IRIS assessments. The EPA is making changes still to the 
IRIS program to enhance our ability to respond to those 
recommendations and to maintain our science integrity. These 
changes will help the EPA produce more high-quality IRIS 
assessments each year in a timely and transparent manner to 
meet the needs of the Agency and the public. A newly released 
NRC report is largely supportive of the enhanced approach that 
EPA is now taking to develop the IRIS assessment, in this case, 
for inorganic arsenic.
    As I mentioned in my opening statement, Mr. Chairman, 
science is the backbone of our decision making, and our work is 
based on the principles of scientific integrity and 
transparency that are both expected and deserved by the 
American people. I am proud of the EPA's research efforts and 
the sound use of science and technology to fulfill EPA's 
important mission to protect public health and safeguard the 
natural environment.
    I want to thank you for the opportunity to meet with the 
Committee for the first time and to provide testimony, and I am 
happy to answer any questions that you might have.
    [The prepared statement of Ms. McCarthy follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Administrator McCarthy. I will 
recognize myself for some questions.
    The first one is this. When you testified before this 
Committee in September 2011, you promised to provide the data 
behind EPA's health benefit claims. And yet, to my knowledge, 
you have not done that. Yet, the Agency continues to justify 
major regulations based upon these studies. Now, you have given 
the Committee some information, but do you agree that the 
information you have given us so far is insufficient to 
validate these findings?
    Ms. McCarthy. Mr. Chairman, my understanding is that we 
have submitted information that you requested.
    Chairman Smith. I don't deny that, but is the information 
you have given us sufficient to validate the findings that you 
have come to?
    Ms. McCarthy. It is sufficient for you to understand the--
--
    Chairman Smith. I know. I know it is sufficient to 
understand, but can we validate it independently? Is the 
information you have given us sufficient to validate 
independently the findings that you have concluded?
    Ms. McCarthy. I believe that it is sufficient for you to 
understand that we have relied on peer-reviewed science.
    Chairman Smith. Well, let me say that we get a letter from 
the EPA saying that it was not sufficient, so you might want to 
check with other individuals within the EPA. We have not gotten 
sufficient information to validate the findings.
    Ms. McCarthy. Mr. Chairman, if you are looking to replicate 
the studies, I would agree with you that all of that 
information isn't available to the Agency, but we have sought 
to get that information for you and we have provided that 
information to you.
    Chairman Smith. Right. The information you have provided--I 
will just make that statement again--and is validated by a 
letter we received from the EPA which is not sufficient to 
validate your findings.
    Let me go onto my next question. Next year the EPA is 
seeking to change its national ozone standards, a move that the 
Agency admits could be the most expensive regulation in 
history, I think perhaps exceeding the cost of $100 billion to 
the American people. Will you specifically commit to not rely 
on secret science and hidden data in the rule making for the 
ozone standards? In other words, will you make the underlying 
data public?
    Ms. McCarthy. The Clean Air Science Advisory Committee that 
we rely on as our peer-review entity to take a look at our 
National Ambient Air Quality Standards ensures that we are 
public, that we make our information publically available. As 
far as transparency----
    Chairman Smith. Okay. So the----
    Ms. McCarthy. --the EPA----
    Chairman Smith. --information will be made publically 
available that you rely upon to issue the ozone----
    Ms. McCarthy. In the same way in which we have done it 
before, Mr. Chairman.
    Chairman Smith. Well----
    Ms. McCarthy. We are very public----
    Chairman Smith. --the same way----
    Ms. McCarthy. --with the information.
    Chairman Smith. The same way before wasn't sufficient, so I 
am kind of wondering if you are saying it will be made public, 
if it is really going to be made public.
    Ms. McCarthy. We rely on thousands of studies. We provide 
an integrated science assessment that is thoroughly looked at 
for the peer-review process.
    Chairman Smith. Let me take you at your word. You said that 
the information would be made public, that the data that you 
rely upon for the issuance of the ozone----
    Ms. McCarthy. In the same way we have done it always, Mr. 
Chairman, yes.
    Chairman Smith. Well, okay. We have to disagree on that. I 
don't think you have always done it, but if you will say you 
will do it now, I will take you at your word.
    Let me ask you this. Have you given the Committee all the 
subpoenaed data in the EPA's possession?
    Ms. McCarthy. If you are referring to the PM data that you 
have requested from the Agency?
    Chairman Smith. No, I am saying----
    Ms. McCarthy. I am sorry, Mr. Chairman. What----
    Chairman Smith. --have you----
    Ms. McCarthy. We have a number of subpoenas.
    Chairman Smith. Right.
    Ms. McCarthy. I just want to make sure----
    Chairman Smith. I am just talking about the one from the 
Science Committee. Have you given the Committee all the 
information that we have subpoenaed that is in your possession?
    Ms. McCarthy. I believe we have as of September 20.
    Chairman Smith. Okay.
    Ms. McCarthy. Those were related to some specific studies. 
One was outstanding until September 20 so we could make sure 
that we had looked at confidentiality and privacy issues.
    Chairman Smith. Okay. Thank you. Will the EPA produce all 
of its correspondence with outside entities regarding the 
efforts to comply with the subpoena, and this would include 
emails, text and other electronic communications?
    Ms. McCarthy. I believe we are responding to that request 
today, Mr. Chairman. If you have further questions after that 
response or you don't believe it is adequate, we will certainly 
get staff together----
    Chairman Smith. Okay.
    Ms. McCarthy. --and we can converse as well.
    Chairman Smith. But otherwise you will say it is going to 
Freedom of Information Act and give us all that correspondence, 
is that correct?
    Ms. McCarthy. We actually respond to a number of Freedom of 
Information Act requests, Mr. Chairman. If that is your 
preference, we can do that.
    Chairman Smith. No, don't let me confuse the issue. You are 
going to give us the correspondence that you have engaged in 
with the third parties to try to get them to comply with the 
subpoena?
    Ms. McCarthy. We are going to respond to your request for 
that----
    Chairman Smith. Okay.
    Ms. McCarthy. --I believe today.
    Chairman Smith. Okay. Thank you for that. My last question 
is this. The EPA has a draft Clean Water Act rule that could 
give EPA unprecedented authority over private property. The law 
clearly states that at the time such a proposal is sent to 
other Federal agencies, it must also be made available to EPA's 
Science Advisory Board, the SAB, for peer review. In September 
EPA sent its proposal to OMB for interagency review, but 
according to your SAB, the draft has not been made available to 
the Board. Why didn't you comply with this requirement before 
formally proposing the rule?
    Ms. McCarthy. Mr. Chairman, I want to assure you that we 
are going to be and we are complying with our statutory 
obligations. What you are referring to is a rule that is very, 
very early in the process of science----
    Chairman Smith. Right, but you submitted it to OMB, and 
according to the law, when you submit it to OMB, you have got 
to submit it to your Science Advisory Board, and that hasn't 
been done yet.
    Ms. McCarthy. We actually have a process that is 
established at EPA for how we communicate with the Science 
Advisory Board on those issues. It is a process that they have 
agreed to and we have. It is consistent----
    Chairman Smith. The submissions are supposed to be----
    Ms. McCarthy. --with the law.
    Chairman Smith. The submissions are supposed to be 
concurrent, and yet you have submitted the rule to OMB but not 
to the Science Advisory Board. Are you expected to do that 
immediately?
    Ms. McCarthy. Again, Mr. Chairman, the Science Advisory 
Board right now has an opportunity to look at the science that 
would underpin that rule, but we are very early on in the 
process and will make sure to comply with the law.
    Chairman Smith. Regardless of where you are in the process, 
the law says you have to submit it to the advisory board at the 
same time you give it to other agencies. But you haven't done 
that, and I am just wondering why.
    Ms. McCarthy. Well, it is not a question that we haven't 
done it. It is a question that we have a process in place--
    Chairman Smith. So you have----
    Ms. McCarthy. --where we work those issues----
    Chairman Smith. So you have submitted the----
    Ms. McCarthy. --with the Science Advisory Board.
    Chairman Smith. You have submitted the rule to the advisory 
board and I am just not aware of it?
    Ms. McCarthy. As far as I know, I don't believe the 
advisory board has the rule, but we are very early in the 
process. Unfortunately, you may have it, and they are likely to 
have it as well because it has been publically released. But it 
is in a very early stage.
    Chairman Smith. If there is a law that says you are 
supposed to submit it to them immediately and you haven't done 
that and that is not following the proper process----
    Ms. McCarthy. Mr. Chairman, I am happy to supply you with 
the articulated process that we use to----
    Chairman Smith. No, I understand----
    Ms. McCarthy. --comply with that.
    Chairman Smith. The process is----
    Ms. McCarthy. But we believe we are in compliance with the 
law.
    Chairman Smith. Yeah, the process is very clear because it 
is the process required by law that you are not following at 
this point and I hope you will.
    That concludes my question, and the Ranking Member is 
recognized for hers.
    Ms. Johnson. Thank you very much. I am a little confused 
myself. I am seeing stacks, huge stacks of materials that have 
been submitted, and I don't know what is missing that you have 
access to that has been requested. Do you understand what is 
being requested or----
    Ms. McCarthy. We believe that we do, and we believe that we 
have complied with those requests to the best of our ability. 
EPA has provided thousands of pages of material that is been 
requested of us, and we have done it because we agree with this 
Committee and its mission to ensure that we have sound science 
and transparency. That is the commitment of this Agency, and we 
will fulfill that commitment.
    Ms. Johnson. Well, thank you. I am really trying to follow 
the line of question of the Chair to understand exactly what 
the real problem is. How do you interpret what the questions 
have been for your understanding and what else do you think 
that can happen, what can be given?
    Ms. McCarthy. Well, we have provided the information. When 
we do rule making, like National Ambient Air Quality Standards, 
we look at the thousands of peer-review studies that are 
available to us. We also fund studies ourselves, and we conduct 
studies ourselves. When we fund those studies and the 
information and the data that we gather to fund those, we have 
to make sure now under the Shelby Amendment that that 
underlying data is available to us. We have done that. But 
there is much information that we look at that is peer-reviewed 
literature, which is really how science works, Ranking Member, 
is that we rely on rigorous peer-review data. EPA relooks at 
that to make sure it is been peer reviewed before we rely on 
it. But we don't have the wealth of data underneath all of the 
thousands of studies. But clearly researchers, including EPA, 
can enter into agreements to gather that data, but much of it 
ends up being confidential or private and we have obligations 
under other statutes as well as OMB guidance to protect that 
privacy. In the case of the National Ambient Air Quality 
Standards, we have the data on air quality, we have the data on 
deaths. What we don't have available to us with the full 
breadth of raw data is the cohort data which really follows 
individuals. So when we have that data, we have to protect it, 
but we don't need to see the wealth of raw data under every 
study to know that it has been rigorously peer reviewed and we 
can rely on it for our decision making.
    Ms. Johnson. Has there ever been a time when the Congress 
has requested raw data that--or is this a unique time?
    Ms. McCarthy. We did actually face similar questionings, 
frankly, about the exact same issues, the PM studies, the 
particulate matter studies, from Harvard University and from 
American Cancer Society. And we were asked similar questions 
back in the early '90s is my understanding, and we funded 
through a contractor 30 researchers to look for three years at 
all of that underlying data they had available to it because 
they could enter into a confidential contract with the 
researchers to access that data so the private information was 
protected. They did a complete reanalysis of that data and the 
methodologies used, and they came out with the same types of 
conclusions. So we have verified even with that underlying data 
available that these are studies that can be relied on. These 
are in fact studies that the world relies on, not just EPA. 
They are well-done, they are credible and they have not changed 
their methodology substantially since the last time we even 
looked at the raw data. So we are very confident in the 
underlying science and that we have done the right thing and 
paid attention to that, which is what EPA is supposed to do.
    Ms. Johnson. Thank you very much. I yield.
    Chairman Smith. Thank you, Ms. Johnson. The gentleman from 
Wisconsin, our former Chairman of this Committee, Mr. 
Sensenbrenner is recognized for his questions.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. Ms. 
McCarthy, on June 27, 2012, you sent a letter to me relative to 
the issue of ethanol and the waiver on E-15. And I asked the 
question, does the EPA remain confident that E-15 will not 
damage car engines from vehicles of model years 2001 and later. 
The letter you signed responded the EPA remains confident in 
the technical basis for the E-15 partial waiver decision. This 
question can be answered simply yes or no. Do you remain 
confident in the technical basis for the E-15 decision?
    Ms. McCarthy. I do.
    Mr. Sensenbrenner. Okay. Now here is what others are 
saying. Ford says it doesn't support the introduction of E-15 
into the marketplace for the legacy fuel. Ford does not 
approve. In the owner's manual it is considered misfueling and 
any damage resulting from misfueling is not covered by the 
warranty. Mercedes-Benz states that any ethanol blend above E-
10 including E-15 will harm emission control systems in 
Mercedes-Benz engines leading to significant problems. Honda 
states that vehicle engines were not designed or built to 
accommodate the higher concentrations of ethanol. There appears 
to be the potential for engine failure. The AAA. AAA's 
automotive engineering experts have reviewed the available 
research and believe that additional assessment is warranted to 
more fully document to what extent the sustained use of E-15 in 
both newer or older vehicles will cause significant problems 
such as accelerated engine wear, fuel system damage and false 
check-engine lights. And the Coast Guard finds that increasing 
the blend to E-15 can be expected to exacerbate any fuel system 
deterioration now being reported with E-10 blend gasoline. Fuel 
leaks cause an unacceptable risk of fire and explosion. My 
question to you is are the auto manufacturers, the AAA, the 
small engine makers and the U.S. Coast Guard wrong and how can 
the EPA continue to ignore these concerns?
    Ms. McCarthy. Congressman, I am not going to speak to their 
issues that particularly the car manufacturers might have 
relative to their liability and warranty considerations. What I 
can tell you is that EPA with DoE did extensive testing of E-15 
on cars. We understand that there are challenges prior to 2001 
which is when some new, more robust engines were required in 
those vehicles. We have done extensive testing. We continue to 
believe that E-15 is appropriate, and if it were available it 
would be being used by individuals for vehicles that are 2001 
and younger.
    Mr. Sensenbrenner. Well, that is not what the manufacturers 
say. That is not what the AAA says. They don't make cars. They 
represent motorists' interest. That is not even what the Coast 
Guard said because we are dealing with small engines including 
marine engines, lawn mowers, snow mobiles and things like that.
    Ms. McCarthy. Congressman, we never----
    Mr. Sensenbrenner. Now, ma'am. Ma'am? I am going to ask you 
a question.
    Ms. McCarthy. I am sorry. Go ahead.
    Mr. Sensenbrenner. I am going to ask you a question.
    Ms. McCarthy. Okay.
    Mr. Sensenbrenner. Because I have a limited amount of time.
    Ms. McCarthy. All right.
    Mr. Sensenbrenner. You will make a very good senator if you 
would like to filibuster. I have a bill that this Committee has 
reported favorably out to require the National Academies of 
Science to conduct an unbiased assessment of the science 
surrounding E-15. There seem to be enough questions relating to 
EPA's conclusions on this. So why don't you support further 
testing of E-15, and why are you opposed to having an unbiased 
referee making call on this fuel?
    Ms. McCarthy. I don't recall, Congressman, that I have 
spoken to this issue. EPA----
    Mr. Sensenbrenner. Will you support----
    Ms. McCarthy. Again----
    Mr. Sensenbrenner. --my bill for more testing on this 
issue?
    Ms. McCarthy. I am sorry. I have not read the bill but if 
you are asking me----
    Mr. Sensenbrenner. Well, the bill has been around for a 
long time because it was sponsored in response to your letter 
where there's a disagreement on whether the EPA has conducted 
unbiased research. Now, how about having another look at this 
before people's engines get wrecked?
    Ms. McCarthy. Additional research that is done credibly and 
transparent is also--always welcome, Congressman.
    Mr. Sensenbrenner. Fine. I would appreciate a letter from 
the EPA and from you supporting my bill, and then maybe we can 
put it on the floor.
    Ms. McCarthy. But I do feel that we have sufficiently done 
our analysis, and I continue to rely on it.
    Mr. Sensenbrenner. Well, then I guess having an unbiased 
view is something that you won't always support.
    Ms. McCarthy. Well, I----
    Mr. Sensenbrenner. I yield back the balance of my time.
    Chairman Smith. Thank you, Mr. Sensenbrenner. The 
gentlewoman from Oregon, Ms. Bonamici, is recognized for 
questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you, Administrator McCarthy for appearing before us today. The 
work that you do to protect the health of our constituents is 
very important and very much appreciated.
    I want to briefly mention the EPA's work on the Portland 
Harbor Superfund Site, an issue that's been important for years 
in the district I represent and in the region but one where I 
think we could all agree the work has not progressed as 
expeditiously as it should. And when I met with you in April of 
this year to discuss the issue, you had yet to be confirmed as 
administrator, but we still had a very productive conversation 
and I want to say an encouraging conversation about increased 
cooperation between the EPA headquarters, the Oregon 
Congressional delegation, and you also expressed an interest in 
improving the relationship between the EPA Region 10 and our 
local stakeholders. And so far I have seen positive signs of 
that happening, and I wanted to say that I look forward to 
working with you and the EPA to, we hope, finally take care of 
that superfund site in the Portland Harbor. So thank you for 
your work on that.
    Ms. McCarthy. Thank you.
    Ms. Bonamici. On the topic of EPA protecting public health, 
in your testimony you focus on how important it is that good 
science be used to determine when public health is in danger. 
After all, that is one of EPA's critical missions. And in the 
first hearing held by the Environment Subcommittee--oh, in a 
hearing held by the Environment Subcommittee earlier this year, 
a look at the state of the environment, one witness, Richard 
Truesbeck, said that looking too closely at a problem can sort 
of overestimate the need for a solution. He said when one puts 
anything under a microscope, one necessarily will find 
something ugly to gawk at.
    When considering public health, it is hard to imagine that 
just because something is small or microscopic, it should not 
be evaluated to determine its impacts on public health. Surely 
our constituents can be harmed by pollutants that they cannot 
see.
    So can you talk about the process that EPA goes through to 
determine when a problem is severe enough to address through 
Federal action, and then I do want to save time for another 
question.
    Ms. McCarthy. We address the science in many different ways 
depending upon what we are actually focusing on and where 
authorities lie. EPA doesn't agree with a statement that says 
that we shouldn't be focused on both our mission as well as 
appropriately doing our job that Congress gave us. We look at 
both doing independent reviews of the science. We do that 
rigorously. We do it through something we call the IRIS process 
which I mentioned earlier, which is really a health assessment 
that underpins many of the decisions that we do that helps us 
understand what the science implications are, what the health 
implications are for people that are exposed to chemicals and 
other hazards in the environment. And it is extremely important 
for us to look at those issues.
    Then we look at what authorities Congress has given us, 
what responsibilities we have and we address those 
responsibilities in the way in which Congress gave us to 
address those.
    Ms. Bonamici. Okay.
    Ms. McCarthy. That is how we make improvements in public 
health. That is how we have successfully done that for 40-
almost 3 years.
    Ms. Bonamici. Thank you. In March of this year the 
Environment Subcommittee had a hearing on EPA's Science 
Advisory Board, and since then the committee has passed 
legislation modifying the makeup of those boards. And 
throughout the process, some on this Committee have asserted 
that industry voices are not represented and that academic 
interests dominate, and others of us acknowledge that the 
industry perspective should be heard but we are concerned about 
making sure that we don't have conflicts of interest.
    So you discussed this a bit in your opening testimony, but 
will you please expand on how industry scientists might 
contribute to the Science Advisory Boards while also avoiding 
conflicts of interest? And how do you as Administrator ensure 
that the advice that you are receiving from those bodies are 
not tainted with policy-related judgments?
    Ms. McCarthy. For the Science Advisory Board, we believe 
the EPA meets and exceeds our responsibilities under FACA, our 
legal requirements, and we are more transparent and we look 
more closely so that we can make sure that we look at the 
Ethics in Government Act as well. The Science Advisory Board in 
our process for doing that is something that we are very proud 
of. When we do panels and we put them together, we publish our 
consideration of who the panel members should be. We ask for 
comments on that. We respond to that. We look at making sure 
that the panels we put together are well-balanced and that they 
have all of the range of expertise we are looking for as well 
as a variety of perspectives.
    Ms. Bonamici. And can you please discuss the conflict of 
interest issue because I want to make sure you get that in.
    Ms. McCarthy. We actually look very closely at conflict of 
interest which we look at both whether or not there are 
financial problems that are real or the appearance is there, 
and we make sure that we do a thorough analysis of both any 
investment opportunities or financial considerations. We just 
recently established a new process where we are looking at that 
as well and more rigorously for external contractors as well.
    So we look at the issues, whether they are perceived or 
real. We do them publically, transparently. We take comments 
every step of the way to ensure that our panel has the 
expertise as well as the credibility it needs to speak from a 
sound science and transparency perspective.
    Ms. Bonamici. Thank you very much. I see my time has 
expired. Thank you, Mr. Chairman.
    Chairman Smith. Okay. Thank you, Ms. Bonamici. The 
gentleman from California, Mr. Rohrabacher, the Vice Chairman 
of this Committee, is recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
following up with my colleague from Oregon's line of 
questioning. I appreciate her setup, and we appreciate you 
being here with us today.
    Ms. McCarthy. Thank you.
    Mr. Rohrabacher. About the Science Advisory Boards--and 
there is serious concern that the EPA's regulatory science has 
become somewhat of a closed loop that the Agency sets 
regulatory goals based on whatever motives those goals are 
based upon and then develops the funds and the science that it 
needs to justify those goals. The Agency then creates its own 
regulations and is solely responsible for interpreting those 
regulations. Making matters even worse, the courts largely 
defer to the EPA especially when questions involve the analysis 
of science.
    Therefore, the most critical requirement for America to 
trust this regulatory policy or system and especially the 
regulations that are set forth by the EPA is scientific 
integrity. Unfortunately, as I say, there are worries, and at 
least I believe there seems to be some very serious reasons for 
being worried about this being a closed loop. A closed loop is 
not going to give us the type of science that we need. We 
believe that especially this is evident in a matter that you 
were just discussing with my colleague from Oregon, the 
independent peer review of EPA science and we believe, and I 
would like to ask you a few questions about whether or not this 
has been compromised.
    You are responsible for appointing members of the EPA's 
Scientific Advisory Boards, and let's take a look at Science 
Advisory Boards such as, number one, the Science Advisory Board 
and number two, the Clean Air Science Advisory Committee. And 
you have called these panels independent review boards.
    Ms. McCarthy. Um-hum.
    Mr. Rohrabacher. And your predecessor described them as 
being made up totally of independent expert scientists. And 
that is pretty well what you still agree with?
    Ms. McCarthy. Um-hum. Yes.
    Mr. Rohrabacher. You are still acknowledging that that is 
still what your goal is and what we are trying to do? I would 
like to put into the record some information prepared by the 
Congressional Research Service that calls into serious question 
the independence of the experts that sit on these committees.
    Chairman Smith. Without objection, it will be made a part 
of the record.
    [The information appears in Appendix II]
    Mr. Rohrabacher. According to the CRS, almost 60 percent of 
the members of these two panels have received EPA grants since 
2000. That is totaling taxpayer-funded grants worth roughly 
$140 million. Perhaps even worse, a majority of the members of 
the Clean Air Science Advisory Committee, the panel tasked with 
critically evaluating the EPA's particulate matter standards 
that was finalized at the end of 2012, a majority had received 
EPA grants directly related to particulate matter since 2010. 
So you have someone investigating or passing judgment on things 
that they themselves have been given grants and been involved 
in the research they are supposedly overseeing. And Ms. 
Administrator, in the past we have heard EPA witnesses express 
the point of view that scientists who have received EPA grants 
are somewhat immune from any potential conflicts associated 
with these grants that they are involved with or future grants. 
Do you consider that the recipient of EPA grants, do you 
consider that if someone has actually been involved and had a 
grant and done study about something they are supposed to now 
review that that would compromise that person's ability to have 
an independent judgment?
    Ms. McCarthy. No, not in and of itself, as long as we have 
procedures to ensure that they are fair-minded, that they are 
there because of their expertise.
    Mr. Rohrabacher. Well, fair-minded just means that they 
don't have any bias. We are talking about a built-in bias here. 
You are trying to say that somebody who has already been given 
a grant and has reached conclusions is someone that we can then 
trust to have an unbiased view, after we have paid them in 
order to have a biased view?
    Ms. McCarthy. Mr. Chairman, we understand that there have 
been concerns expressed about that. We also understand that 
others have expressed concern about having people who are in 
the industry that we are discussing that would be impacted.
    Mr. Rohrabacher. That is correct. That is a whole----
    Ms. McCarthy. That is a----
    Mr. Rohrabacher. That is something someone would be 
concerned about.
    Ms. McCarthy. But I would say that we use----
    Mr. Rohrabacher. You think government employees are immune 
from the same sort of bias that you would find in an----
    Ms. McCarthy. No, I am not saying they are immune, sir. I 
am saying that we have a process in which we rigorously pursue 
those issues to ensure that they are there to represent their 
expertise and that the panel is balanced, that it is fair, it 
meets all requirements, ethical requirements----
    Mr. Rohrabacher. The question isn't whether they are----
    Ms. McCarthy. --and technical requirements.
    Mr. Rohrabacher. --isn't balanced. The question is whether 
there are members who are involved, sometimes at very high 
levels, and guiding the direction of those panels who actually 
have a built-in bias in that they have already been granted 
grants to make a conclusion before you now are asking them for 
an unbiased conclusion.
    Ms. McCarthy. We----
    Mr. Rohrabacher. In fact, sometimes, Administrator, they 
are asked to give assessments of their own work in other words, 
we are now paying someone to give an unbiased assessment of 
something that is his or her work.
    Chairman Smith. The gentleman's time has expired. The 
gentleman from Washington, Mr. Kilmer, is recognized for his 
question.
    Mr. Kilmer. Thank you, Mr. Chairman. I thank you for coming 
to take our questions today.
    Ms. McCarthy. It is good to be here, thank you.
    Mr. Kilmer. I have got a question regarding EPA funding and 
prioritization. I represent the 6th District of Washington 
State which is bordered by the Pacific Ocean and Puget Sound 
and also includes some of the most pristine natural areas in 
the country. I want to commend the work of your Agency and all 
of our Federal agencies in the State of Washington for some of 
the work that has been done to protect our resources. But there 
is a lot more to be done. Ocean acidification, storm water 
runoff, ecosystem restoration are just a few of the issues that 
we are only beginning to understand, not to mention the effects 
that these issues have on our marine industries and on the 
Puget Sound economy.
    Faced with this task, myself and Representative Denny Heck 
along with several of our colleagues created the Puget Sound 
Recovery Caucus to gather support and try to figure out what we 
can do on a Federal level to solve these direct problems that 
we are facing in the Puget Sound and also how to be proactive 
in issues that are just beginning to emerge.
    With a limited Federal budget and sequestration, receiving 
funding for these types of vital problems is an uphill battle 
that we are still climbing and we need to continue to climb, 
not just because it affects our environment but because it 
affects jobs and our economy. I realize the issues that we face 
in the Puget Sound are similar to many other issues across the 
nation, and we want to find ways not only to highlight the 
Puget Sound but we want to make progress, get projects off the 
ground and fix the problems we need to ensure the vitality of 
Puget Sound, not just now but in the future.
    So first an invitation and then a few questions. One, I 
would like to invite your partnership with our caucus. I would 
love to invite you to meet with our members, and would even 
love to invite you to come out and meet with the folks who are 
working on this in our State. And then my question are can you 
give insights into how we can actually make some progress, 
particularly in light of this budget environment, how we can 
fast track and give greater priority to regional efforts like 
this where the science is clear, the need is clear, and we need 
to start making some progress.
    Ms. McCarthy. Well, I do hope that the indiscriminate way 
that the sequestration has impacted all of the agencies is 
something that is looked at in the budget, upcoming budget 
discussions so that everybody can agree on a more sensible and 
common-sense way to make any reductions that are necessary and 
to implement the budget effectively.
    I do know that we have folks who are working in this area, 
and you probably know Dennis McLerran. There is nobody in the 
world that knows or cares more about the issues that you have 
just identified than he does. I do think there are ways in 
which we can work together through a variety of shared 
technical expertise as well as potentially grant funding. We 
work on those issues together. I have an opportunity over the 
next three years to make sure we enhance those partnerships. So 
I would be looking forward to it, and we should have a 
discussion about how best to do it.
    Mr. Kilmer. Great. Thank you very much, and I yield back.
    Chairman Smith. Thank you, Mr. Kilmer. The gentleman from 
Texas, the Chairman Emeritus of this Committee, Mr. Hall is 
recognized.
    Mr. Hall. I thank you, Mr. Chairman. Ms. McCarthy, I thank 
you for being here today, and the Committee has worked for 
several years to ensure sound scientific processes and 
transparency at the EPA. I think we need a study on the EPA's 
lack of transparency and accountability some time, and you 
would be one of the witnesses that we would want you back 
again.
    One of the areas that concerns us is the EPA's very poor 
track record of science relating to hydraulic fracturing. The 
EPA is zero for three on that. In Parker County, Texas, Dimock, 
Pennsylvania, and Pavilion, Wyoming, you and the Agency alleged 
that hydraulic fracturing had been responsible, and three times 
the agency had to back away from these allegations after proper 
scientific analysis and review exposed these to be totally 
unfounded.
    We have had a number of regulators and scientists testify 
where you sit today about hydraulic fracturing, and you have 
sat there and you testified here and you have also testified in 
the Energy and Commerce Committee. Nearly all of those that 
have sat before us have confirmed the safety of these 
unconventional oil and gas techniques. Not one testified that 
there has been any incidents of groundwater contamination from 
fracking, not one of them. We have also received testimony from 
both the President's Science Advisor as well as the President's 
Assistant Secretary sitting right where you are under the oath 
that you have taken for the Department of Energy, said that 
there has not been a single documented case of groundwater 
contamination from fracking in this country. You probably won't 
be surprised that I reference once again in a comment that you 
made in 2011 that I gave you a chance to take back. I have not 
seen where you have made any apology for it when you said--and 
I hope you have backed off of this remark since then. You said 
I certainly don't want to give the impression that the EPA is 
in the business to create jobs. A cruel statement I think to 
those families that can't support their children, can't make a 
car payment, because according to a 2012 study by the research 
company IHS Global Insight, hydraulic fracturing, estimated 1.7 
million jobs in the United States. That number is projected to 
go over 3.5 million jobs by 2035. And according to the Energy 
Information Administration, natural gas production is expected 
to rise an estimated 44 percent through 2040. Without the use 
of hydraulic fracturing technology, the nation's energy 
security and economy would seriously be compromised. Those 
millions of jobs would be lost.
    With that in mind, you stated recently in the interview 
with The Globe, Boston Globe, I quote, ``There's nothing 
inherently dangerous in fracking that sound engineering 
practices can't accomplish.''
    So do you agree that hydraulic fracturing is safe and that 
there has not been a single documented case of groundwater 
contamination from fracking? Yes or no.
    Ms. McCarthy. I can't answer it that way. I will agree with 
you----
    Mr. Hall. Well, then yes, you have answered it. If you 
can't answer it that way, you don't know or you refuse to 
answer it.
    Ms. McCarthy. No, I meant I would like to explain it a 
little bit if I could.
    Mr. Hall. I am not asking for your explanation. I just 
asked you for a yes or no.
    Ms. McCarthy. I do not know of a documented case----
    Mr. Hall. I will go on.
    Ms. McCarthy. --of groundwater contamination.
    Mr. Hall. I will take that as you don't know or you don't 
care because you didn't know and you didn't care about people 
having jobs back then. That was a terrible statement that you 
made, and it is of----
    Ms. McCarthy. Actually, it was taken out of context.
    Mr. Hall. --record. It was not taken out of direct context. 
I read it exactly out of the CR, and you know that. Now why 
don't you admit it?
    Ms. McCarthy. Well, it was actually celebrating the fact 
that we have been successful in reducing environmental 
pollution while we have grown jobs.
    Mr. Hall. Let me go on. So you agree that this hydraulic 
fracturing is safe. Do you agree to that?
    Ms. McCarthy. I cannot agree.
    Mr. Hall. Okay. You haven't agreed. These experts that have 
testified before you have also agreed that state regulators 
have the expertise, competence and experience necessary to 
oversee hydraulic fracturing. Do you agree that the state 
regulators are generally quite knowledgeable about local 
geologic conditions in the drilling operations they oversee? 
Yes or no.
    Ms. McCarthy. I believe they are knowledgeable and they 
often seek EPA's technical advice.
    Mr. Hall. I think your answer is led to be yes. Do you 
think the EPA is better suited to regulate hydraulic fracturing 
operations than the state regulators who are already doing so? 
Yes or no.
    Ms. McCarthy. I believe that with water quality, the state 
is the line of first defense and EPA is with the state in 
those----
    Mr. Hall. I am not asking you to filibuster anymore. Yes or 
no.
    Ms. McCarthy. I am trying to understand how to--in the 
context of the authority we are given.
    Mr. Hall. You are not making me understand. Maybe I can't 
understand anything you say because----
    Ms. McCarthy. Okay.
    Mr. Hall. --you are hard to believe, ma'am. Do you believe 
that natural gas prices will remain low if EPA promulgates 
regulations that restrict production? Yes or no.
    Ms. McCarthy. I actually think that a large component of 
the nation's energy security relies on the safe and responsible 
development of oil and natural gas, sir.
    Mr. Hall. Our nation depends on an all-of-the-above energy 
strategy, and the use of technologies like hydraulic fracturing 
have been an important role in helping achieve energy security. 
We need you to support it, not deter it and not deter these 
efforts.
    Ms. McCarthy. And I would hope not, sir.
    Mr. Hall. I yield back my time, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Hall. The gentlewoman from 
Connecticut, Ms. Esty, is recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman, and thank you, 
Administrator, again. Connecticut, as you know exceptionally 
well, has been the beneficiary of substantial improvements to 
health through the Clean Air Act, and so I would like you to 
talk a little bit about the situation now. Many utilities have 
already installed pollution control devices on their 
facilities. If EPA at this time were to pull back on clean air 
regulations governing these utilities, would they have and do 
you believe they would have an incentive to run these pollution 
control devices and what would be the associated impact on air 
quality and public health, particularly for those of us, I 
would have to say, on the Eastern Seaboard who with west-to-
east winds are the recipient of what is burned in Indiana, Ohio 
and elsewhere?
    Ms. McCarthy. Well, we know even with the control equipment 
working that the power sector remains the largest single 
stationary source sector in terms of the amount of pollution 
that it emits. We have been working hard with them, but there 
is no question that there is financial incentive to bypass 
equipment when it is available to be done.
    So I would assume that if we were to pull back on our 
regulations, what you are going to see is increased emission. 
And that increased emission results directly in public health 
impacts that are as severe as thousands of premature deaths.
    Ms. Esty. I know in our own State, we have seen those 
asthma rates rise very substantially in our cities, and those 
are costs that are borne primarily by state governments who 
then have to pick up the tab and by insurance companies to----
    Ms. McCarthy. And many because of pollution, that comes to 
you from facilities run very far away.
    Ms. Esty. Exactly. If we could turn for a moment to the 
scientific review process, certainly we have heard some 
commentary today and elsewhere from Members of Congress who 
have stated that or suggested that EPA develops regulations 
based on faulty scientific evidence. Can you explain to us in a 
little more detail--and I will ask my question and then 
listen--how the scientific process that underpins EPA 
regulations is peer reviewed, what you believe to be the 
importance of peer-review process, and flesh that out a little 
bit more for us, please.
    Ms. McCarthy. Yeah. The process that we use is to actually 
establish peer-review panels. We can do them by seeking advice 
from the National Academies of Sciences. We can establish it 
through our Science Advisory Board, and we can use consultants 
that follow similar processes and establish again transparent, 
robust, balanced peer review.
    The Science Advisory Board is a highly transparent, 
professional entity. We are--as a FACA, we comply with those 
regulations. We also comply with ethics requirements. We follow 
all of the guidance that is given to us in the directives by 
the Office of Management and Budget in how to do our work. I 
believe that we are a model for transparent, solid, high-
quality science.
    The Clean Air Act Science Advisory Committee was mentioned. 
That advisory committee was just recently looked at by our own 
IG, our Office of Inspector General, who just issued a report 
commending us for how solid our panel was in our ability to 
have that balanced and appropriate. Now we are always working 
to enhance that, but I am incredibly proud of the science this 
Agency relies on, and I know the high quality of our science is 
what is going to keep EPA relevant and make us and allow us to 
do the right thing in terms of meeting our mission which is 
public health protection.
    Ms. Esty. And if I may--I am shuttling between hearings, 
and currently in the Transportation and Infrastructure hearing, 
we are talking about the cost of Sandy and the underwater rail 
lines in the State of Connecticut and Newark, New Jersey, the 
impacts of the severe weather systems that we see. Can you talk 
a little bit about how EPA--other than the curbing of 
greenhouse gas emissions, what other work is EPA doing to look 
at the scientific but also the very real economic impacts, I 
have to say, on the Eastern Seaboard we are seeing from climate 
change and severe weather conditions?
    Ms. McCarthy. Congresswoman, in 2012 the costs associated 
with disaster response topped $120 billion. That is not planned 
expenses. That is what happens. And what we know is that in the 
face of a changing climate, these types of disasters are going 
to become more and more prevalent if we don't reduce greenhouse 
gases.
    If you look at the work of this Agency, we have not only 
been funding efforts at the local level and the state level to 
look at how you can adapt to a changing climate, we have put 
out a plan that requires and shows a pathway forward, for EPA 
to look at how it does its business working with the 
communities. So we look at a changing climate, and we factor 
that into our decision making, in our ability to work more 
carefully and collaboratively with local communities and states 
moving forward. And my heart goes out to Connecticut. I know it 
was very hard hit, and it is my home away from home.
    Ms. Esty. Thank you for your service, and I yield back.
    Chairman Smith. Thank you, Ms. Esty. The gentleman from 
Texas, Mr. Neugebauer, is recognized for his questions.
    Mr. Neugebauer. Well, thank you, Mr. Chairman. Administer 
McCarthy, thank you for appearing before this hearing today.
    Ms. McCarthy. Thanks for inviting me.
    Mr. Neugebauer. I have several questions, and so if you 
could keep your answers pretty short and direct. First, as you 
know, setting the levels for the New Source Performance 
Standards, the Clean Air Act requires you to select the best 
system of emission reductions for technology that has been 
adequately demonstrated.
    Ms. McCarthy. Um-hum.
    Mr. Neugebauer. Now, we have had several hearings in this 
Committee on the new standards where we have heard testimony 
whether the CCS technology necessary to meet these standards 
has actually been adequately demonstrated at the full-scale 
power plants.
    I have asked your colleagues from the Department of Energy 
on a number of occasions if they could give me examples of 
where full-scale power plants are located, and their testimony 
is none of them are operating anywhere in the world. If this is 
true that full-scale power plants operating now are not 
operating with CCS technology, how can you say that it has been 
adequately demonstrated?
    Ms. McCarthy. We believe, sir, that CCS technology has been 
adequately demonstrated. The technology is proven, it is 
available. In fact, the coal technologies in facilities that 
you see being constructed today are actually utilizing CCS.
    Mr. Neugebauer. So can you give me, provide me an example 
of a full-scale power plant that is currently operating with 
this technology?
    Ms. McCarthy. I can give you examples of two that are 75 
percent completed, and I can give you an example of others that 
are coming up that are also in the planning stages. So CCS for 
coal----
    Mr. Neugebauer. So what would those be?
    Ms. McCarthy. --is actually what is being invested in.
    Mr. Neugebauer. What would those be?
    Ms. McCarthy. We have the Kemper facility that is 75 
percent complete, and there is another project in Canada that 
is also utilizing it at levels much higher than the types of 
reductions that EPA has proposed in its new source data.
    Mr. Neugebauer. Are any of those facilities that you 
mentioned receiving clean coal power initiative funding, excuse 
me?
    Ms. McCarthy. It is my understanding that there has been 
funding supported by DoE. DoE continues to have funding 
available for these types of projects.
    Mr. Neugebauer. So they are receiving clean coal power 
initiative funding?
    Ms. McCarthy. Yes, that is my understanding.
    Mr. Neugebauer. Well, it is kind of interesting then 
because the Energy Policy Act of 2005 clearly states that 
projects receiving funding from this program can't be used to 
prove technology is adequately demonstrated. So the examples 
that you are using are receiving funding, and the 2005 act says 
that you can't use those. So can you explain your logic on 
that?
    Ms. McCarthy. Actually, sir, I think we are regulating and 
proposing this regulation under the Clean Air Act which is very 
specific in both its intent as well as its history of 
application. There is no question that CCS technology is 
available. The components of CCS have been in place and 
demonstrated for decades. So the question really is, is it 
reasonable in cost and is it available for this sector? EPA 
believes it is, but we have proposed that. We are welcome and 
open to comments. We will be getting to that public comment 
process shortly. But I think through that public comment 
process you will see that this technology is well-known, it is 
available, it is being invested in today and it is going to 
work and it is going to be a pathway forward for coal into the 
future.
    Mr. Neugebauer. No, but I think to summarize what you have 
said is, one, there is no full-scale power plants operating 
with this technology today. Is that correct?
    Ms. McCarthy. I am aware of--these components being 
operated in many different applications.
    Mr. Neugebauer. I didn't say components, but there is no 
full-scale power plant operating with these----
    Ms. McCarthy. No, but the ones being invested in would be 
operating----
    Mr. Neugebauer. No, that is right. Okay.
    Ms. McCarthy. --at much higher levels than we would be 
requiring.
    Mr. Neugebauer. So and then you are using federally funded 
CCS projects to argue technology is adequately demonstrated, 
yet the 2005 act prohibits you from doing that.
    Ms. McCarthy. Actually, we think it has been adequately 
demonstrated, but the support----
    Mr. Neugebauer. But not on a full-scale basis, right?
    Ms. McCarthy. --from DoE will help advance the technology.
    Mr. Neugebauer. Not on a full-scale basis? We don't have 
that yet.
    Ms. McCarthy. We have it on full scale in other 
applications, sir, other industry sectors.
    Mr. Neugebauer. But not on these----
    Ms. McCarthy. It is only--it is being invested in today and 
in two facilities are 75 percent complete and on their way.
    Mr. Neugebauer. But what you are saying under these new 
rules is no new coal plants can be built without utilizing this 
technology, and we don't know that it is adequately 
demonstrated for these plants because we don't have a full-
scale model.
    Ms. McCarthy. We believe it has been adequately 
demonstrated.
    Mr. Neugebauer. But not on a full-scale model.
    Ms. McCarthy. It has been fully utilized in other industry 
sectors.
    Mr. Neugebauer. But not on these coal plants, not on a 
full-scale coal plant.
    Ms. McCarthy. I have already indicated to you. We know of 
two that are being constructed today, and they are----
    Mr. Neugebauer. That they are being constructed, but we 
don't have any history that that technology is, one, will 
accomplish that, but secondly, that it meets any kind of cost-
benefit analysis, do we?
    Ms. McCarthy. The cost-benefit analysis? Is that what we 
are talking about, sir?
    Mr. Neugebauer. No, but that would be a part of that. I 
mean, you don't know for sure because you don't have a model 
where this technology is----
    Ms. McCarthy. No, but we do know that the industry sees CCS 
technology as a pathway forward. We also see it as one that is 
available to it and ones that we are hoping with DoE assistance 
it will continue to progress. It will get less and less 
expensive. That is how technology gets developed. But in this 
case, all of the components of CCS as well as those together 
have been demonstrated over and over as being viable and 
effective, and we believe that they will be the path forward 
for coal. Coal is a big part of our energy supply. I know it is 
going to continue to be a big part of our energy supply. We 
have tried very hard to make sure that we look at the 
technologies available to it today so it continues to have a 
path forward.
    Mr. Neugebauer. But we don't tend to use research funds for 
things that have already been determined adequately 
demonstrated, do we? And so we are using research funds to try 
to prove this up, and you are using it as an example that it is 
adequately demonstrated. It doesn't make sense to me.
    Ms. McCarthy. Actually, we are coordinating very closely 
with DoE, and if you have listened and heard from the DoE folks 
today, you will know that they share our opinion about its 
availability and that it is been demonstrated. But it is 
exciting to think that we could make it more cost-effective 
moving forward and that you could expand the range of 
sequestration opportunities. So they are actually working very 
hard with the industry to continue to move that technology 
forward. That is only good news, sir. That is not bad news.
    Chairman Smith. The gentleman's----
    Mr. Neugebauer. But we still don't know whether it is 
adequately demonstrated.
    Chairman Smith. The gentleman's time has expired. Thank 
you, Mr. Neugebauer.
    Pursuant to the discussion earlier about the sufficiency of 
the data provided by EPA relating to the Committee's subpoena, 
I ask unanimous consent to enter into the record a letter from 
the Texas Commission on Environmental Quality the Committee 
received just last week that makes clear, ``that the data 
provided to date lacks critical information, making it 
impossible to replicate the findings'' of the EPA. Without 
objection, that will be made a part of the record.
    [The information appears in Appendix II]
    Chairman Smith. We will go now to the gentlewoman from 
Maryland, Ms. Edwards, for her questions.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you Madam 
Administrator. I really appreciate your being here, and I 
certainly appreciate your patience.
    We have heard described on this Committee and throughout 
the Congress frankly questions about EPA's reliance on faulty 
and secret science, questions about EPA's transparency and 
accountability. First of all, I want to thank you for the 
transparency and accountability the EPA has provided for the 
volumes of data and correspondence that this Committee has 
received. And I am just curious that sometimes the 
correspondence asks for information, sometimes for documents or 
data as evidenced by testimony, by questions here today. I am a 
strong supporter of Congressional authority, but I really am 
concerned about whether we may be overstepping our authority in 
terms of what we are requiring of the Agency. We are just one 
committee of many who's making these types of requests to the 
EPA. And so I wonder if you could just tell me how much time 
and energy is spent by you and your colleagues at the EPA in 
responding to these volumes of requests?
    Ms. McCarthy. Congresswoman, we know how important it is to 
be transparent, and we will do our very best to respond to any 
request that Congress brings to us. It is a significant burden 
in terms of resources. But that is just the amount. I don't 
mean burden in the negative sense. We want to be open. We want 
to be responsive. But we receive thousands of these types of 
requests. We do our best to answer them as expeditiously as we 
can. I think the times when we have had difficulties is when we 
have been asked to release data that the EPA doesn't have 
available to it. Then it becomes an extra effort for us to try 
to make sure we bridge those gaps with scientists when we fully 
expect that researchers themselves will access that data as 
they have always done and work it out that way.
    Ms. Edwards. Well, let me just ask you this because we have 
heard some discussion of conflicts of interest. I can 
understand, and we have heard testimony in this Committee, that 
when you are forming--when there's peer review done and you are 
delving into some area of expertise that is a very narrow area, 
there are only so many folks out there who have the kind of 
experience that you can draw upon. Some of those may be in 
industry, some of those may be academics who receive grants. 
When you assess conflict of interest and, you know, I am just 
like a cheap lawyer. And so I always thought that the idea 
behind conflicts is revealing those conflicts, having them 
assessed and then making a determination about whether that 
conflict would prohibit performance, adequate performance, and 
independence of performance in a peer-review situation. Is that 
how the EPA looks at conflict of interest?
    Ms. McCarthy. That is exactly how we do that. You are 
right. There are opportunities or instances where we have a 
very narrow expertise that is not represented that is critical 
to a thorough look at a science question or a technical 
question. In that case we do a thorough investigation. We post 
the results of that so that people can know the background and 
we can make sure that it is a balanced, fair, equitable 
discussion and as transparent as we possibly can be. And so we 
do that both for folks who are the scientists as well as folks 
that bring their history in the industry to the table.
    Ms. Edwards. And is there anything necessarily exclusionary 
whether a person receives billions of dollars or a company in 
profits from an industry or whether a person receives thousands 
of dollars from the Administration in terms of doing research? 
Is there anything exclusionary about that that would prohibit 
service on a scientific advisory panel?
    Ms. McCarthy. I don't believe so. What it really means is 
we must have a rigorous and transparent peer-review process and 
we must rigorously share that information with the public so 
they can--before the panel is empanelled, they can offer their 
suggestions and comments and criticisms, and we can make sure 
that we have the most robust fair, comprehensive science 
available to us.
    Ms. Edwards. Thank you. I want to ask you about your work 
around climate change because there has been a lot of 
discussion also. Is it your view from the Administration that 
you have sufficient data to back the work that you are doing 
around climate change, that in fact it is happening and that 
there are certain causal effects that would enable you to do 
rule-making in that area?
    Ms. McCarthy. I believe that I have a wealth of data that 
is more than sufficient. I believe that the Supreme Court has 
agreed with me, which is nice.
    Ms. Edwards. Great. And so can you tell me about some of 
the rule-making that you are engaged in going in that direction 
and then relate that to the mission of EPA protecting our 
public health and the environment?
    Ms. McCarthy. Yes, the President's Climate Action Plan 
identifies mitigation opportunities and reductions in 
greenhouse gases as well as addressing adaptation and then 
international issues. EPA is to some extent involved in all 
three. But I think the most important I want to get at is our 
opportunity to reduce greenhouse gases so we can try to 
mitigate significant impacts associated with increased 
emissions in higher levels of climate change.
    And so what we are really looking at is first and foremost 
regulating greenhouse gas emissions from the power sector, both 
the new facilities and existing. We have already issued a 
proposed rule for new facilities, and we are beginning 
listening sessions and discussions on how we best put out a 
proposal next June for existing facilities. The reason why we 
want to do this is that climate change is not an environmental 
problem. It is a serious public health and economic problem as 
well as an environmental challenge. And so what happens with a 
changing climate is that the weather gets hotter. When the 
weather gets hotter, the ozone levels increase. When the ozone 
levels increase, your kids go to the hospital more often with 
asthma. In this country today, one out of ten children have 
chronic asthma. We are talking about serious public health 
challenges. Allergy seasons extend. We are seeing health 
impacts from different types of mosquitoes and other vector-
borne diseases moving north as the weather gets warmer. Things 
are changing, and things are not changing for the best in terms 
of public health in a changing climate. It threatens the 
health, safety and well-being of communities and individuals. 
It is something we must address and now.
    Ms. Edwards. Thank you very much for your testimony, and 
thank you so much for the work that you do to protect all of 
us.
    Ms. McCarthy. Thank you.
    Chairman Smith. Thank you, Ms. Edwards. The gentleman from 
Illinois, Mr. Hultgren, is recognized for his questions.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you, 
Administrator McCarthy for coming and testifying today. I do 
honestly believe that what you are doing is important. That 
being said, I have a number of problems with how EPA has done 
its job. Putting forward rules without adequate stakeholder 
input or a full grasp of the negative impacts proposed rules 
will have on regular Americans. I think it is important to 
point out how far we have come, even according to your own 
data. Since the implementation of the Clean Air Act, aggregate 
emissions have dropped by 72 percent, all while energy 
consumption has increased by 47 percent. Vehicle miles traveled 
has increased by 165 percent, and most importantly, GDP has 
increased by 219 percent.
    That is why I will continue pushing your Agency to base 
regulations on sound scientific principles and practices, make 
your data sets open to the public for review and to utilize 
common-place statistical measures and methods, all of which EPA 
has seemed adverse to when the facts don't necessitate what 
often appears to be a politically predetermined regulatory 
approach.
    As you know, Section 316(b) of the Clean Water Act requires 
the best technology available to minimize harm to aquatic 
organisms living in water that are withdrawn through cooling 
water intake structures for power plants. For the last three-
and-a-half decades, states and permitting authorities have been 
setting necessary controls on a site-specific basis. But 
unfortunately, it now appears that the EPA is again attempting 
to rewrite the rules to expand your regulatory power. When 
relying on the science, EPA has not been able to justify this 
rule-making. This is because the costs always outweigh the 
benefits. Your agency has recognized that there will be no 
benefit to human health, and the economic benefits from 
potential improvements to commercial fisheries and recreation 
bodies, the use benefits, will not justify the new rules cost, 
either.
    Since the Agency has been unable to justify these rules 
with their standard methods, I am troubled with the idea of 
non-use benefits that you are now attempting to put in place. 
Even more troubling is the way EPA intends to assign values to 
these benefits through polling. I think every member in this 
room can attest to the inaccuracies of polling, and it is 
troubling to me that the EPA would turn away from science and 
to a public opinion poll to promulgate regulations. When EPA 
did their survey asking how much money the public was willing 
to spend to save a given number of fish, the numbers 
predictably came back inflated. Then EPA punted the issue to 
the Science Advisory Board.
    Also troubling with the rule is that it could be 
interpreted to force power plant owners to monetize these non-
use benefits and perform willingness to pay surveys for 
specific control technologies on a site-specific basis.
    Although 316(b) is the EPA's first attempt to justify rule-
making with this willingness to pay surveys, I am also worried 
that this controversial methodology will only encroach into 
other rule-making. If this happens, public opinion polling will 
become the backbone of many EPA regulations instead of science.
    I think it is important that states are allowed to continue 
exercising permitting discretion. I am asking could you confirm 
that the EPA's final 316(b) rule will not require states to 
consider non-use benefits or require plant owners to conduct 
willingness to pay surveys in the NPDES permitting process?
    Ms. McCarthy. The final 316(b) is at the Office of 
Management and Budget, so I am constrained about getting into 
too much detail. But we have heard similar comments during the 
public process. The survey that we did was appropriate on the 
national level to get a handle on people's willingness to pay 
for the types of improvements that these technologies would 
bring. We don't expect that to be the way in which states and 
permittees make case-by-case decisions.
    Mr. Hultgren. Well, again, I think the most important thing 
is to base this on science, not on public opinion polls.
    Ms. McCarthy. I understand.
    Mr. Hultgren. You can ask all of us how we feel about 
public opinion polls and the accuracy of them. Certainly for us 
to be basing----
    Ms. McCarthy. I understand.
    Mr. Hultgren. --the scientific decisions and significant 
costs on them is very troubling. I have another quick question 
that I hope to get an answer. It is regarding when EPA plans on 
publishing rules, adjusting the volume requirements for the 
renewable fuel standard. As you know, with the predictions that 
were made when designing the RFS not being realized, those 
predictions have not been realized, your Agency is who are 
farmers and everyone else downstream must get answers from 
regarding the early adjustment for this requirement. I think 
everyone was pleased that the first two adjustments came in a 
timely manner which helped to bring certainty for all parties 
involved. The final rule for the 2011 adjustment was published 
in the beginning of December in 2010, and the 2012 rule came in 
January of that year.
    What is troubling is how long it took EPA to issue their 
final rule for 2013. It didn't happen until the middle of 
August. As it is important that our businesses and farmers be 
able to plan ahead for this, can you give this Committee 
assurance that you will focus on getting a final rule out in a 
reasonable amount of time this year and wonder if you could 
give a perspective date or timeframe when you expect to have 
this rule published?
    Ms. McCarthy. The rule to establish limits for 2014 is soon 
to be proposed. It will take some time. We did tee this issue 
up in our 2013 proposal. The only thing I want to make sure 
that the Committee is aware of is the levels that we are 
talking about for renewable fuels to get into the system in 
2014 are not predictions. They are Congressional mandates that 
we are dealing with in trying to understand the authority that 
Congress gave us to----
    Mr. Hultgren. Well, my time is winding down, and I want to 
be respectful of the 5 minutes.
    Ms. McCarthy. I apologize. Me, too.
    Mr. Hultgren. So anyhow, the issue is bringing certainty to 
our businesses and farmers.
    Ms. McCarthy. I agree with you.
    Mr. Hultgren. The sooner we can get these----
    Ms. McCarthy. I agree with you.
    Mr. Hultgren. --again, earlier over the last few years, 
this did happen quickly. I would just ask you for my farmers, 
for my businesses, to have it as quickly as possible----
    Ms. McCarthy. I agree with you.
    Mr. Hultgren. --to bring certainty back.
    Ms. McCarthy. I agree.
    Mr. Hultgren. With that, I yield back, Mr. Chairman. Thank 
you.
    Ms. McCarthy. Thank you.
    Chairman Smith. Okay. Thank you, Mr. Hultgren. The 
gentleman from California, Mr. Takano, is recognized for his 
questions.
    Mr. Takano. Thank you, Administrator McCarthy, for your 
testimony today and your appearance before this Committee.
    I have to tell you, it is frustrating to me to sit here and 
listen to my colleagues on the other side of the aisle beating 
up on the EPA. My colleagues and I have seen first-hand how the 
EPA--not my colleagues, my constituents and I have seen first-
hand how the EPA and the Clean Air Act have improved air 
quality and advanced public health in my district. Nationally, 
the stories are just as compelling. A study by the EPA shows 
that by 2020 the benefits of the Clean Air Act will outweigh 
the costs by more than 30 to 1. The Clean Air Act has helped 
improve public health by cutting down cases of asthma, heart 
disease and infant mortality, and by 2020, it is expected to 
prevent 17 million lost work days because people are healthier.
    I believe the EPA is a driver of innovation, pushing the 
industry to adopt new standards that protect the environment, 
improve public health and create jobs in emerging fields. 
Administrator McCarthy, could you go into more detail about how 
the EPA rules have actually created jobs in our country and 
what new structures have grown because of EPA action?
    Ms. McCarthy. Actually, thank you for asking that. It helps 
me to put the job code in a little bit more perspective. I 
think you would see as we have done a considerable amount of 
analysis as we do with every rule, about every significant rule 
looking at job implications, we have been able to make these 
considerable pollution reductions at the same time as we have 
been able to continue to grow the economy here in the U.S.
    We are looking at actually a pollution control technology 
industry that now tops around $2 billion annually. We are 
leaders internationally in those issues. It is because we have 
been moving at a concerted pace to get better and better at how 
we reduce pollution, and we are doing it in a way that is 
affordable and that is extremely beneficial to the public 
health. We are talking about saving millions of lives. We are 
talking about really improving the health of our most 
vulnerable populations, our children and our elderly. I mean, 
we are talking about growing jobs, not taking them away, and we 
can provide you with significant more detail, Congressman. But 
I appreciate your asking the question because EPA is about 
public health. But we do it always conscious of how we can 
reduce economic impacts and actually build the economy at the 
same time.
    Mr. Takano. Madam Administrator, I just wanted to clarify 
something. My colleague, Mr. Rohrabacher, cited a CRS report 
which indicated an inherent conflict of interest found among 
members, academic members of its advisory committees. However, 
this report, which I have right here, made no such conclusion. 
Rather, it noted that these grants are actually to academic 
institutions----
    Ms. McCarthy. Yeah.
    Mr. Takano. --where the member is employed. And not the 
member and only a very small proportion of any of the grant may 
be paid in the form of salary to a member. Is that your 
understanding as well?
    Ms. McCarthy. Yes, it is. Yes, it is. Thank you, 
Congressman, for raising that.
    Mr. Takano. Yes. With the conclusion, Mr. Chairman, with 
the discussion of the Committee's subpoena regarding the 
Harvard and American Cancer Society studies, I would like to 
enter into the record letters that the Chairman received on 
October 30 from Harvard, Brigham-Young University, the ACS and 
the American Cancer Society and the Health Effects Institute. 
These letters highlight the serious legal, ethical and policy 
concerns regarding the release of individual health 
information.
    Chairman Smith. Okay. Without objection, those letters will 
be made part of the record.
    [The information appears in Appendix II]*************** 
COMMITTEE INSERT ***************
    Chairman Smith. But just for clarification, those letters 
were actually addressed to the EPA, not to me.
    Mr. Takano. Okay. Thank you, Mr. Chairman. Madam 
Administrator, if I understand these science advisory 
committees, the industry is--in your opinion, is the industry 
adequately represented on these committees for a full balance 
of use?
    Ms. McCarthy. The members on these panels don't represent 
specific sectors. They do represent expertise and knowledge and 
experience. And from my experience in working with these panels 
is that folks who have worked in the industry usually provide a 
perspective that is necessary on these panels. So it is a broad 
and balanced panel when we pull them together. That is required 
under law, and we even go above and beyond to ensure that that 
is the case.
    Mr. Takano. So in your view there was no such closed loop, 
that these are open-minded panels that are not contained by a 
particular ideology?
    Ms. McCarthy. That is exactly what we are required to do 
under the law, and I think we do a very good job at ensuring 
that it is not at all closed. It is very open. We just look for 
good expertise so we can get the best science.
    Mr. Takano. Thank you, Mr. Chairman. My time has expired.
    Chairman Smith. Thank you, Mr. Takano. The gentleman from 
Georgia, Mr. Broun, is recognized for his questions.
    Mr. Broun. Thank you, Mr. Chairman. Administrator McCarthy, 
I have a very limited amount of time and very many questions, 
so please answer as quickly as you possibly can so we can get 
through.
    I am a physician, and I want to make sure that we are on 
the same page about basic principles of toxicology, one of 
which is that the dose makes the poison. A good example is two 
aspirins will help relieve the headache, 50 aspirins is a toxic 
dose. Would you agree with that premise that the dose makes the 
poison? Yes or no.
    Ms. McCarthy. I don't want to speak to the science----
    Mr. Broun. Yes or no, please.
    Ms. McCarthy. --but the dose is very important to us, yes.
    Mr. Broun. So the answer is yes. Even though fine 
particulate emissions have dropped 55 percent over the last two 
decades, it is noted on your website, EPA's own website for air 
quality trends, your Agency has been very concerned with the 
health effects associated with fairly low dosage, low levels of 
particulate matter, or PM. It has been the basis of most of 
your recent Clean Air Act regulations. Agency analysis suggests 
that hundreds of thousands of Americans die from PM exposure 
every year. According to your website, ``Numerous scientific 
studies have linked particulate particle pollution exposure to 
premature death, cancer, non-fatal heart attacks and aggravated 
asthma.'' Does the science suggest that PM can cause cancer?
    Ms. McCarthy. I do not know. I cannot answer that question, 
sir. I am sorry.
    Mr. Broun. Okay. Well----
    Ms. McCarthy. I don't know what the word suggests is, and I 
don't know how the scientists would interpret that. I wait 
until they tell me.
    Mr. Broun. Well, okay. EPA's most recent assessment of PM 
stated that there was ``strong epidemiological evidence linking 
short-term exposure to PM as measured in hours, cardiovascular 
and respiratory mortality and morbidity.'' Is that still true?
    Ms. McCarthy. I believe so.
    Mr. Broun. Okay. If the dose makes the poison, as you just 
indicated you believe that they do and I do, too, and you think 
that hundreds of thousands of people die from fine particulate 
levels at the lowest level, why has your Agency conducted a 
series of human tests in North Carolina that exposes unknowing 
volunteers, that have no knowledge of the exposure, including 
those with pre-existing respiratory issues and asthma, to 
particulate concentrations as high as 750 micrograms? That is 
more than 60 times the standard. Would you explain, please?
    Ms. McCarthy. To my knowledge, we have not done that.
    Mr. Broun. Yes, ma'am, you have. And, in fact, the 
Inspector General has been investigating this, and we found out 
about this through the Freedom of Information Act. Were these 
individuals informed that they were being subjected to a 
pollutant that EPA thinks causes mortality and cancer, 
especially since many came from susceptible populations?
    Ms. McCarthy. It is my understanding that the human studies 
work that we are doing was recommended by the national 
academies. It is done with the highest ethical standards. We 
medically----
    Mr. Broun. Ma'am, I----
    Ms. McCarthy. --treat every----
    Mr. Broun. --disagree, because these people--according to 
the knowledge that we have gotten is they were unknowing that 
they were being exposed to these high levels of exposure of 
particulate matter. And, as far as I am concerned, as a 
physician, as a scientist, this is totally unethical, and 
totally unacceptable. Let me ask you one more question, because 
my time is running out. Are you signed up for Obamacare?
    Ms. McCarthy. No, I am not.
    Mr. Broun. Why not?
    Ms. McCarthy. Well, because I am lucky enough, as a Federal 
Government, that I have health care available to me, which I 
have signed up for. In a few years, when that is not the case, 
I will be happy to have other available----
    Mr. Broun. Well, our President says that----
    Ms. McCarthy. --health care----
    Mr. Broun. --Obamacare----
    Ms. McCarthy. --opportunities----
    Mr. Broun. --is much better than forcing most Federal 
employees to--into Obamacare. And, obviously, if you are not 
signing up, you don't think it is. Mr. Chairman, I have run out 
of time. I yield back.
    Chairman Smith. Thank you, Mr. Broun. The gentleman from 
Massachusetts, Mr. Kennedy, is recognized for questions. We 
have had some problems with the audio system. How about that 
one? There we go. Okay, there we go.
    Mr. Kennedy. Thank you. Thank you, Mr. Chairman. Thank you, 
Madam Administrator, for being here, and I apologize for the 
raspy voice. It has been going around a bit, so, apologies. I 
just wanted to start off by saying welcome, and thank you. It 
is always nice to see another member of Red Sox Nation here 
today, so--and certainly in front of our committee.
    Ms. McCarthy. Go Sox.
    Mr. Kennedy. There you go. I want to thank you for all your 
hard work over the past several months, and I look forward to--
very much working with you in the years ahead. I had a couple 
of questions, if you don't mind, and first is actually an issue 
that is pertaining to my district a bit. Over the past few 
decades, the EPA has made really admirable progress in 
attacking the lingering pollution and contamination issues in 
local municipalities that, left unchecked, would have dire long 
term health and safety consequences, not to mention financial 
ones.
    Back home, in my district, just outside of Boston, the 
Fourth District of Massachusetts, I hear concerns about the 
cost of compliance with some of those regulations in almost 
every city and town I visit. They don't disagree with the 
importance of these regulations, but the communities struggle 
to get back on their feet post-recession, and deal with an 
already crippling loss of state and Federal dollars due to our 
budget situation here. That price tag of compliance can seem 
nearly impossible.
    In 1992, the city of Fall River was ordered to tackle a 
combined sewage overflow project that is estimated to cost them 
$185 million to date, along with 8 million in debt payments 
every year. This is an old industrial city, with an 
unemployment rate around 13 percent, median household income 
that struggles to break $30,000 a year. Similarly, Milford is 
looking at a $100,000 a year additional spending to meet new 
regulations for storm water management. They have also included 
a new pilot program to reduce phosphorus runoff in local rivers 
and waterways, but the price tag around that is about $111 
million up front, a price tag which, if borne by the town, 
would be felt tremendously by local businesses. The surrounding 
towns of Franklin and Bellingham are both looking at bills of 
about 75 million and 35 million respectively through the same 
pilot program.
    When I talk to local officials and businesses, they want--
they have a genuine desire to be EPA compliant. They are 
bringing up their children and grandchildren in these same 
neighborhoods, and they see the value of clean air and clean 
water. They are tremendously concerned about the effects of 
contamination, pollution, and other environmental hazards, and 
how they wreak havoc on their hometowns, and they know the 
associated costs of long term savings. But they are stuck, and 
so I wanted to ask you, in your opinion, is there any 
assistance that the Federal Government, not just the EPA, but 
the Federal Government, can give these already strapped 
municipalities that are struggling with the cost of compliance? 
And, again, I ask this, of course, given the--understanding the 
fiscal constraints that our government is under right now, but 
knowing that, obviously, this is an issue that is important to 
you as well. So if you could respond for a minute or so, I 
would be grateful.
    Ms. McCarthy. Thank you for raising this, and your voice in 
this discussion would be really welcome. We are working on 
these issues pretty diligently, primarily with the conference 
of mayors, because all of them understand these challenges, why 
it is important for their public health and their environmental 
resources that we tackle these more challenging water quality 
issues. But we are working on this on a number of different 
fronts, and EPA clearly has funds available to help support 
this. Is it enough to go around? No, it isn't. It is never 
expected to be. It will be a challenge. We try to prioritize 
that, and make sure that we are getting the biggest bang for 
the buck in helping those most in need.
    So we are trying to work on a way to make a--this a much 
more collaborative process, where we understand the constraints 
that the cities and towns are in, and we don't expect things 
that they cannot deliver, but we work more in partnership to 
find the least cost opportunities to make continued 
environmental progress moving forward.
    Mr. Kennedy. Thank you. And then, Madam Administrator, if I 
can ask, and I apologize, I had to step out for a moment, but, 
my understanding, there has been two studies that have much 
discussed today. I can refer shorthand to them as the Harvard 
study and the ACS, American Cancer Society study, is that 
right?
    Ms. McCarthy. Yes.
    Mr. Kennedy. You do understand me? Would you characterize 
those institutions as reputable?
    Ms. McCarthy. Yes.
    Mr. Kennedy. Well known?
    Ms. McCarthy. Yes.
    Mr. Kennedy. Capable, and producing well-regarded and 
scientific study, other than these past studies?
    Ms. McCarthy. I would.
    Mr. Kennedy. Have these two studies been peer reviewed?
    Ms. McCarthy. Many times.
    Mr. Kennedy. By who?
    Ms. McCarthy. By--through contractors for the agency, 
through the national community, through EPA.
    Mr. Kennedy. Through EPA? And sometimes through public/
private partnerships?
    Ms. McCarthy. Yes.
    Mr. Kennedy. And so that review, is that all government 
funded?
    Ms. McCarthy. No.
    Mr. Kennedy. No? So, in fact, part of that funding was done 
by a group that was actually funded by automotive industry, is 
that right?
    Ms. McCarthy. Yeah, many.
    Mr. Kennedy. Okay. Thank you. I yield back my time.
    Chairman Smith. Thank you, Mr. Kennedy. Mr. Kennedy, you 
have elicited the shortest answers of the day, so 
congratulations to you. The gentleman from Indiana, Mr. 
Bucshon.
    Mr. Bucshon. Thank you. Thank you for being here. I just 
wanted to give a brief statement about bias. I am a 
cardiovascular and thoracic surgeon, so I know quite a bit 
about health, and I recently reviewed the data from the 
American Lung Association that they put out about particulate 
matter, and look at the background on the funding for all the 
studies, and, lo and behold, everything that they used was 
pretty much very far left leaning global warming activist 
foundations that privately funded these things. And, in 
addition to that, the potential health benefits are based on 
computer modeling, not on actual data, but a computer model 
projecting their data results into the future, not based on 
actual factual data, with human studies. And, to make matters 
worse, the computer modeling was developed by an individual who 
had a financial stake in the success of the model going 
forward. In fact, I had the Chief Medical Officer from the 
American Lung Association come down from New York and discuss 
this with him in my office, and voiced my disappointment that 
an organization that is so highly esteemed would be using data 
which, in my view, was biased.
    But my question goes in another direction. In September 
your agency proposed a rule that represents perhaps the 
clearest, although not certainly the first, in the 
administration's war on coal, what I will call war on coal. The 
Eighth District of Indiana, that I represent, has nine coal 
mines, every coal mine in the state, our state. 88 percent or 
so of our power comes from coal. Coal supports the economy, you 
know, jobs indirect and direct. It helps families put food on 
the table. In fact, I grew up in Illinois. My dad was a coal 
miner, so I have known this industry forever. In fact, I 
wouldn't be here if it wasn't for that.
    But the new source--performance stands for new power plants 
will essentially prevent construction of another coal fired 
power plant in this country ever, essentially. In the first few 
pages of the EPA Cost Benefit Analysis, you admit that this 
policy will, and I quote, ``Result in negligible CO<INF>2</INF> 
emission changes, or quantified benefits, through 2022.'' In 
your view, should the federal government regulate coal fired 
power plants in this manner if there are no clear benefits? 
That is an up or down.
    Ms. McCarthy. We should be regulating CO<INF>2</INF> from 
carbon emissions, yes.
    Mr. Bucshon. Then your statement that you made was 
incorrect, that there is a benefit through 2022? Because the 
quote in the first few pages of the Cost Benefit Analysis says, 
and I quote again, ``Result in negligible CO<INF>2</INF> 
emission changes, or quantified benefits, through 2022.''
    Ms. McCarthy. Which is a reflection of the industry and the 
market as it sits today.
    Mr. Bucshon. Okay. So what you are saying is they should 
regulate that, even in light of the fact the EPA admits there 
is no benefit to it?
    Ms. McCarthy. The issue is that coal is not being invested 
in, except in a few instances where carbon capture and 
sequestration is being invested in, where--when we want to make 
sure that we take advantage of those new technologies, and make 
sure that we do what the Clean Air Act says, which is to 
underpin those reductions----
    Mr. Bucshon. Okay.
    Ms. McCarthy. --moving forward.
    Mr. Bucshon. And that is fair, and I think the industry 
would agree that constant innovation and technological advances 
is something that the industry also----
    Ms. McCarthy. Uh-huh.
    Mr. Bucshon. --believes in, as--and would--will invest in.
    Ms. McCarthy. They do.
    Mr. Bucshon. That said, is the technology currently 
commercially available on a large scale for Indiana and the 
Midwest to meet the proposed standards?
    Ms. McCarthy. On a large scale?
    Mr. Bucshon. Yes. I mean, you might quote that the 
technology is available in----
    Ms. McCarthy. It is.
    Mr. Bucshon. --in some academic setting, or in an area of 
the country, say, where things are very close--but 
specifically, you know, related to CO<INF>2</INF> emission 
capture, and all, you know, my understanding is currently there 
is not the commercially available on a large scale technology 
to comply, in Indiana, with the regulation. So the regulation 
is in place, but there is no commercially available technology 
to comply. Is that true or not true?
    Ms. McCarthy. We believe that CCS is commercially 
available. Is it going to be broadly disseminated at this 
point? No, we don't believe so, because most of the facilities 
that are being constructed are actually natural gas facilities. 
They are the most competitive. But where coal is being invested 
in is being invested in with CCS.
    Mr. Bucshon. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Bucshon. The gentleman from 
California, Mr. Peters, is recognized for questions.
    Mr. Peters. Thank you very much, Mr. Chairman. And, Madam 
Administrator, thank you for being here. I should start by 
mentioning that the first job I had out of college was at the 
EPA in Washington, D.C.
    Ms. McCarthy. Really?
    Mr. Peters. And I left to pursue other interests, and here 
I am back again with you, but it is nice to see you. And 
welcome, and thank you for your service. I wanted to ask about 
hydraulic fracturing, but, for context, I just wanted to call 
your attention to the work at the Institute for Strategy and 
Competitiveness at the Harvard Business School. Michael Porter 
and Jan Rifkin have done a study, what would make the United 
States the most competitive place to do business in the world? 
They have identified a lot of things we have heard about, like 
highly skilled immigration--or highly--immigration of highly 
skilled individuals, corporate tax reform, overseas profits, 
international trade, simplifying and streamlining regulation, 
improving communication and energy infrastructure, creating a 
sustainable Federal budget, and the responsible development of 
American shale gas and oil reserves as an important component--
--
    Ms. McCarthy. Um-hum.
    Mr. Peters. --of competitiveness worldwide. So, first, I 
wanted to ask you a little bit about--do you think that it is--
that it is possible to develop these reserves responsibly? Is 
that the EPA's position?
    Ms. McCarthy. I believe so.
    Mr. Peters. And if so--so, if so, tell me a little bit 
about what you think the approach should be. And I want to give 
you a little bit of time, because I feel like I didn't get--you 
were interrupted sometimes when you were trying to give these 
answers.
    Ms. McCarthy. Well, I----
    Mr. Peters. What is the--what should be the approach to the 
development of this? I would ask you to touch on two things in 
particular. One is the--obviously water and--water supply and 
quality, but also the emission of gases, including VOCs and 
methane, which is a super pollutant, and also how you would 
avoid double regulation? Because I understand there is other 
agencies in the Federal Government that may be doing things 
that are overlapping or inconsistent.
    Ms. McCarthy. And there is a lot of State Governments 
working on this issue as well.
    Mr. Peters. Right.
    Ms. McCarthy. I would, first of all, want to agree with you 
about the importance of the expanded natural gas availability. 
It has been a game changer in many ways, and it is important 
for our national security, as well as our continued ability to 
have all these energy resources available to us. So I think 
what EPA has been doing is in two ways. One is the President 
has been very clear about the fact that natural gas, and its 
availability, has been incredibly important to the country, but 
it also needs to be done safe and responsibly.
    And I think the committee knows that we are working on a 
very large project with other agencies of the Federal 
Government to look at water quality challenges, or 
implications, associated with hydro fracking, and new 
unconventional oil and gas exploration. We are in the middle of 
that study. Again, that is very robust. We have done a lot of 
outreach, webinars, and we are gathering as much information as 
we can, doing technical workshops. We expect that a draft will 
be out for peer review in the end of 2014. So we are tracking 
those issues, as well as responding to individual states when 
our technical expertise is being requested.
    States are also the first line of responsibility in water 
quality, so we want to work in partnership with them to make 
sure that they are able to meet their own needs, and their--and 
fulfill--and get answers to their own questions, when they 
arise.
    On the air quality side, we have a couple of things 
happening. We have actually already put out an air quality 
standard to address methane from emissions related to natural 
gas facilities--natural gas exploration, in particular 
fracking, at which time there are a lot of VOCs emitted. We can 
capture those. With that comes the methane. It can be re-used, 
and there is an ability to actually move forward in a cost--a 
very cost-effective, and actually profitable, way to start 
gathering that methane as we are capturing the volatile organic 
carbons. We are looking at some other questions that have been 
raised about what else we should do, and we are looking at 
those issues, again, working in concert with other agencies, as 
well as states and local communities.
    So while hydro fracking has raised concern about whether it 
can be done, or is being done, safe and responsibly, EPA is 
working with states, local governments, and the industry to 
make sure that we understand how to answer those issues 
effectively, from a science perspective, and in a way that 
continues to maintain the availability of inexpensive natural 
gas that strengthens this economy, as well as helps us reduce 
air emissions.
    Mr. Peters. And I appreciate that. I think that seems like 
a reasonable response. The one thing I would ask you, as a--
someone who practiced environmental law for a long time----
    Ms. McCarthy. Yes?
    Mr. Peters. --is please do what you can to work with the 
administration so we don't have overlapping and potentially 
inconsistent regulations? Very frustrating for the public, and 
we want it to be done responsibly. We also want it to be done 
in a way that people can understand. Again, thank you for being 
here, and thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Peters. The gentleman from 
Arizona, Mr. Schweikert, is recognized for his question.
    Mr. Schweikert. Thank you, Mr. Chairman. Madam 
Administrator, I really only had two things I wanted to walk 
through, and for everyone that was in a Committee with us here 
yesterday, I am sorry, you are going to hear part of the same 
theme again. These large data sets that are used, particularly 
in things like PM10, which is a big deal for those us out in 
the desert, southwest, where we actually have this thing called 
dirt, you know, without grass on it, so it really does affect 
our lives.
    Why is it so controversial, why is it so partisan, to put 
up the data? And what I mean is down to the individual, because 
you and I know, with all other types of data--you were a social 
anthropologist, so when you were being vetted, and doing a 
review of data, you got down to the line item. If there was 
something personal there, you do a non-identifier number, you 
strip the personal data, and put those data sets up on 
websites, where it is egalitarian, where if a, you know, 
collectivist group, or a conservative group, or a business 
group, or a grad student could get it down to the line item 
data, and say, here is the noise from the data, but at least 
you have a communal international fight over this is good, this 
is bad, and who knows, you know, for those of us on the 
conservative side, it may not yield what we think it will, or 
the liberal side, but at least there is that purifying effect 
of lots and lots and lots of people being able to drive their 
analysis through those data sets. Why is that such a difficult 
conversation to have around here?
    Ms. McCarthy. I don't think there is anything political or 
controversial about making data available.
    Mr. Schweikert. I should show you the tape from this 
committee from earlier in the year, where that was stunningly a 
fight.
    Ms. McCarthy. All the EPA is really trying to do is its 
responsibility under a number of laws, which is basically--we 
want to be supporting to the extent we can, openness, 
transparency, sharing information, sharing data----
    Mr. Schweikert. But----
    Ms. McCarthy. --meeting our--but----
    Mr. Schweikert. Well----
    Ms. McCarthy. May I just finish? The one thing I think we 
just need to have--make sure that there is a clear 
understanding is we have obligations to protect private 
information----
    Mr. Schweikert. But there is a----
    Ms. McCarthy. --and confident----
    Mr. Schweikert. But I will tell you that in many ways that 
is a bizarre comment, because--do what everyone else does. You 
strip the personal identifiers, and here is your data set.
    Ms. McCarthy. We have--and we are actually asking those 
very same questions, and if you look----
    Mr. Schweikert. Well--but----
    Ms. McCarthy. --at the----
    Mr. Schweikert. But how do you ask--and then use it as an 
excuse to not give us the data?
    Ms. McCarthy. There is no--I am not trying to offer 
excuses, Congressman. I am trying to be as responsive as I can. 
But we need to just be careful in how we maintain that 
confidentiality. And we are working with----
    Mr. Schweikert. But there is all----
    Ms. McCarthy. --all of the researchers----
    Mr. Schweikert. But there is----
    Ms. McCarthy. --on this.
    Mr. Schweikert. But, look, there is all sorts of protocols 
in that. I was involved in a very large project, where we were 
doing analysis of how much mortgage fraud had happened in our 
communities. We did random identifiers, and then we put it out, 
and said, everyone study what happened. It is not hard. It is 
done every single time it is not that hard. And, if you are 
also using proprietary data, inappropriate. You are making 
public decisions, for the public, that affect the public, 
billions and billions of dollars, maybe for the good, maybe to 
the bad. To use proprietary data, I believe, is borders on 
perverse.
    I have something else I just want to show real quick, can 
we put up this slide? And this has sort of been my fixation of 
how we accumulate data, how we do analysis and study things. In 
Maricopa County and Gila County, Pinal County, I have a 
metroplex there with a few million people. We have PM10 and 
monitoring sites. And instead of putting monitoring sites where 
my population lives, we have chosen, you have chosen, under the 
rule sets, and I understand there may be a rule where, once it 
is there over a couple of years, it is really hard to move, 
because you lose the baseline data, but take a look at this 
one, just for the fun of it.
    You have put, your predecessor, a monitoring site next to a 
very large stockyard, next to a railroad track, next to desert 
agriculture, and next to a series of dirt roads. Could you 
imagine the data you get from this monitoring site? Yet this is 
dozens, and dozens, and dozens, and dozens of miles away from 
where my population base is. How does that not create perverse 
skewing in your underlying data for trying to really build good 
quality statistics, particularly in PM10? This is an outlier, 
and you have two other monitoring stations that have almost the 
same attributes here. You are getting so much noise in your 
data, this is where you--for those of us from sort of 
statistical backgrounds, we are just bouncing off the walls 
livid.
    Ms. McCarthy. Well, I am happy to spend some time and bring 
my folks in, but when we do these rules, we also propose a 
monitoring plan, and we work with states. We take public 
comment on those plans as well.
    Mr. Schweikert. My county, and my state, and my communities 
have been begging for years to put this in a rational spot, and 
have been ignored.
    Ms. McCarthy. Well, we should have that conversation. But I 
do think our obligation is to look at ambient air quality 
across the country in a way that reflects the----
    Mr. Schweikert. The population basis?
    Ms. McCarthy. Well, actually, we do the--most of the 
monitors are done on a population basis.
    Mr. Schweikert. So----
    Ms. McCarthy. Some of these are not. Clearly this one was 
not one of them.
    Mr. Schweikert. But this one didn't even hit the trifecta. 
It hit all four, you know, outliers. So----
    Ms. McCarthy. But I appreciate your----
    Mr. Schweikert. Madam Administrator----
    Ms. McCarthy. --raising that point----
    Mr. Schweikert. --sorry----
    Ms. McCarthy. --and having that----
    Mr. Schweikert. --but this is one that is just been a thorn 
in our side----
    Ms. McCarthy. I actually----
    Mr. Schweikert. --for----
    Ms. McCarthy. --think I have been there before.
    Mr. Schweikert. Well, in that case, I can't believe we 
didn't move it the next day. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Schweikert. The gentleman 
from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you. Thank you, Ms. McCarthy, for being 
here. The Chairman, in his opening comments, said that he 
believes the EPA should answer the American people. Do you 
agree with that?
    Ms. McCarthy. We work for the American people, yes.
    Mr. Weber. Good. Ms. McCarthy, have you ever run a 
business?
    Ms. McCarthy. Have I ever--no.
    Mr. Weber. No? Okay. You said in your comments that you 
were here to talk about the central role the science plays----
    Ms. McCarthy. Yes.
    Mr. Weber. --earlier today. And have you ever heard the 
statement that all scientists are only sure about one thing, 
and that is that every scientist before them was wrong?
    Ms. McCarthy. I have not.
    Mr. Weber. You have not heard that? Good. That is, you 
might learn, does the science ever change, or get proven wrong?
    Ms. McCarthy. Sure. Yes, it does.
    Mr. Weber. Frequently, doesn't it?
    Ms. McCarthy. I----
    Mr. Weber. So if you are here to talk about the central 
role the science plays in the EPA's deliberations, what would 
you say is the second thing that plays a role in the EPA's 
deliberations?
    Ms. McCarthy. There are--if I could say three things?
    Mr. Weber. Quickly, please.
    Ms. McCarthy. Science, law, and transparency.
    Mr. Weber. Science, law, and transparency. We are off to a 
good start. You said--and I don't remember who the exchange was 
with--submitted a rule, was it to OMB?
    Ms. McCarthy. OMB.
    Mr. Weber. OMB, Office of Management----
    Ms. McCarthy. Office of Management----
    Mr. Weber. --and Budget. Okay.
    Ms. McCarthy. Yes.
    Mr. Weber. But not to the Science Advisory Board? And, by 
law, as you said was the second thing that played a part in you 
all's deliberations, behind science, or three things, then. So, 
by law, you are supposed to submit that same rule on the same 
date--or by that date, is that accurate?
    Ms. McCarthy. I am not aware that that is specified in the 
law, but we certainly engage the SAB, and we have a----
    Mr. Weber. And you said you have a process of doing this. 
But if it is--if you are to submit it at the same time, or the 
same day, that is a pretty exacting science.
    Ms. McCarthy. We actually sometimes consult with them even 
before it goes in the inter-agency----
    Mr. Weber. And you are to be commended. So if you don't 
submit that at the same time, as the objection was earlier, 
then, in essence, you are going around that law that you just 
said you are here to commit science, the American people, and 
following the law, right? So you are actually going around that 
law, so that exact science of the date, when you submit the law 
to OMB and the Science Advisory Panel at the same time, you are 
circumventing.
    Ms. McCarthy. No, sir, I believe I am----
    Mr. Weber. You are not--so you are----
    Ms. McCarthy. --the law.
    Mr. Weber. You are interpreting the law so that as long as 
you have the process, in effect, you are good?
    Ms. McCarthy. No, sir, that--that is not what I----
    Mr. Weber. That is not what you said? Well, I 
misunderstood, I apologize. Let me go on. You said that there 
are researches that have contracts to verify data, in your 
earlier comments.
    Ms. McCarthy. --contact----
    Mr. Weber. You don't recall that? Well, I was taking notes. 
So you have researches that have contracts to verify data, and 
my question is do you ever get biased results?
    Ms. McCarthy. Well, actually, the--our entire peer review 
process is designed to minimize any possibility----
    Mr. Weber. Right.
    Ms. McCarthy. --of that, and I think we do a good job at 
it.
    Mr. Weber. And so Mr. Hall mentioned Parker County earlier, 
where you had--or the EPA had to retract a statement where they 
said that fracking has contaminated the water supply. Are you 
aware of that?
    Ms. McCarthy. I am aware that the EPA developed data, and 
has provided that data publicly.
    Mr. Weber. Okay. And when Mr. Sensenbrenner questioned you 
on the standard for fuel efficiency, you said, pretty much 
quote, you aren't here to speak to manufacturers' warranties 
and liabilities.
    Ms. McCarthy. I can't speak to their----
    Mr. Weber. Right.
    Ms. McCarthy. --statements about that, no.
    Mr. Weber. So, in essence, if it affects an entire car 
industry, it doesn't matter----
    Ms. McCarthy. Very much so it matters. It matters to us, 
and we----
    Mr. Weber. Okay.
    Ms. McCarthy. --appropriate testing for that reason. I just 
can't--I am not--that is not my----
    Mr. Weber. Let me move quickly. Mr. Rohrabacher said, on 
grant recipients, you said in response to him that you have 
procedures to ensure that they are fair-minded. Well, let me 
submit to you, as a business owner, if we are going to put 
businesspeople on the Science Advisory Panel, can't you apply 
those same procedures to make sure that they are fair-minded?
    Ms. McCarthy. We provide the same procedure that is on----
    Mr. Weber. So you would be okay with having more business 
and industry experts on a panel, as long as they are fair-
minded?
    Ms. McCarthy. Our job is to balance that----
    Mr. Weber. Okay.
    Ms. McCarthy. --panel out, and make sure they are doing 
their job correctly.
    Mr. Weber. Very quickly, I have Valero,a plant----
    Ms. McCarthy. Yeah.
    Mr. Weber. --carbon capture sequestration in my district 
and I am in the Gulf Coast of Texas, District 14. Four hundress 
million dollars was the cost of that project. Some 60 percent 
of that was supplied by the DEO through the--DOE through the 
ARRA, American Reinvestment and Recovery Act, stimulus. So you 
said that CCS had been demonstrated to be cost-effective in 
your exchange with----
    Ms. McCarthy. No, I am sorry, sir, I said it was a 
reasonable cost.
    Mr. Weber. It was a reasonable cost? Okay. Well, let us go 
with that. So out of a $400 million, project, 60 percent of it 
$240 million, if I have done--my high school math is holding 
up, is going to have to come from the Federal Government. Do 
you think it is reasonable to believe that industry can 
duplicate that, if 60 percent of the money has to come from the 
American taxpayers?
    Ms. McCarthy. I think our analysis that has been put out, 
that we are taking comment on, would indicate that this cost is 
reasonable for new facilities moving forward.
    Mr. Weber. Okay. So when Congressman Neugebauer asked you 
if you had a cost benefit analysis, you said no, in essence you 
have done one, and you made a judgment decision about your 
analysis that it is reasonable?
    Ms. McCarthy. Yes. It is a little----
    Mr. Weber. Okay.
    Ms. McCarthy. --different that what we would look at as a--
as being cost----
    Mr. Weber. I got you.
    Ms. McCarthy. --effective. But----
    Mr. Weber. And then finally, very quickly, I know that you 
are looking at new projected rules for ozone standards. When 
are those coming out?
    Ms. McCarthy. I do not know the exact date, sir. It is in 
the middle of the process with our Clean Air Act Science 
Advisory Committee. I know that the next big step in that 
process is for them to look at a couple of documents that are--
we are hoping to provide by the end of the year. We are past 
our five year time window----
    Mr. Weber. Okay.
    Ms. McCarthy. --under the law, but we are working as hard 
as we----
    Mr. Weber. EPA seems to be in the business of mitigating 
hazards, so this might be a tricky question for you. Would you 
hazard a guess, will it be before November of 2014 or 
afterward?
    Ms. McCarthy. I do not know the----
    Mr. Weber. And go through that?
    Ms. McCarthy. It needs to be both proposed and finalized, 
and I haven't even been briefed on that, because we are still 
looking at the science, and we like to keep the policy and 
legal questions----
    Mr. Weber. Okay.
    Ms. McCarthy. --aside and work on the science.
    Mr. Weber. And if I may, Mr. Chairman, very quickly, you 
did a national survey to see willingness of people to pay?
    Ms. McCarthy. We are talking about the 316(b)?
    Mr. Weber. Um-hum.
    Ms. McCarthy. I believe it was a national----
    Mr. Weber. Okay.
    Ms. McCarthy. --survey.
    Mr. Weber. Did you also survey industry to see if they were 
willing to pay for the EPA's opinion on whether or not it was 
cost-effective? And did you also do a survey to see if people 
were willing to pay for the loss of jobs when jobs are exported 
offshore because our plants can't compete? Did you do that 
survey?
    Ms. McCarthy. I think we are mixing a little bit of apples 
and oranges, sir, and I don't know if there is time for me to 
clarify what the survey----
    Mr. Weber. Okay.
    Ms. McCarthy. --actually was doing, and in what rule it was 
applying.
    Mr. Weber. We will talk offline.
    Ms. McCarthy. Okay.
    Mr. Weber. Thank you.
    Chairman Smith. All right. Thank you, Mr. Weber. The 
gentleman from Utah, Mr. Stewart, is recognized for his 
questions.
    Mr. Stewart. Thank you, Madam Administrator, for being here 
today. I am sure you have just enjoyed your morning. You have 
been looking forward to this----
    Ms. McCarthy. This is----
    Mr. Stewart. --for weeks, I hope.
    Ms. McCarthy. --part of the public process, and I am 
honored to be here.
    Mr. Stewart. Well, thank you, and I am sincere when I say I 
think we recognize that you have worked hard to serve your 
country. But there are so many things that you and I disagree 
with, and that I believe that the EPA is working not for, but 
actually against the best interest of the American people. And 
some of those, not all of them, but some of them have been 
brought up to date in this hearing so far, and let me just list 
a few of them quickly. Your interpretation of navigable waters, 
with the Clean Water Act, RFS standards and the new ozone 
standards that my friend, Mr. Weber, mentioned there very 
quickly. It is going to affect huge parts of the West.
    Hydraulic fracking and clean water, new standards for the 
human cost of carbon emissions, and standards that--as we have 
spent some time talking about coal fired power plant 
generation. All of these things, and there are others, taken 
together, I believe that these new rules and proposals make 
life harder for hardworking American families. They take away 
economic freedom. They take away economic opportunity, I 
believe, and they have the effect of making Washington D.C. 
more and more powerful, and more and more central to Americans' 
lives. And I think, frankly, that they make the American people 
less trustful of Washington D.C., and less trustful of the 
government, and I am sure you have a sense of that as well. And 
very clearly some of the questions and concerns expressed in 
this hearing today indicate that to you.
    But let me focus on just one of them, if I could, and it is 
not a particularly partisan issue. It will affect Democratic 
and Republican districts. It will affect Democratic and 
Republican states. And I will start with a very simple 
question, and it is not intended to be a gotcha question at 
all, but do you think it would be appropriate for the EPA to 
propose a standard that would be impossible to meet?
    Ms. McCarthy. If it is a health based standard about what 
is healthy, and impacts associated with it, we need to rely on 
the science to say that.
    Mr. Stewart. Well, I understand, but, again, would you 
propose a standard that would be impossible to meet? Would that 
be appropriate for the EPA to do?
    Ms. McCarthy. It really depends on what the question is.
    Mr. Stewart. Well----
    Ms. McCarthy. If it is a health based standard, you set the 
standard based on the health impacts----
    Mr. Stewart. But once----
    Ms. McCarthy. --and then you----
    Mr. Stewart. --again, Madam Administrator, if it is 
impossible to meet, it doesn't matter what your standard might 
be, if it is impossible. And I think everyone would recognize 
that.
    Ms. McCarthy. Well, we would not require the impossible, 
sir.
    Mr. Stewart. Okay, and I appreciate that, and that is what 
I was hoping you would say. And it wouldn't be appropriate for 
the EPA to set standards, for example, that are actually below 
naturally occurring background levels. And if I could call your 
attention to a slide, and I suppose you have seen this, or 
something like this before, regarding ozone standards. The 
areas in red reflect EPA controlled monitor counties where a 60 
parts per billion standard would be violated. Areas in orange 
indicate unmonitored counties that anticipate the violation of 
the 60 parts per billion.
    And, look, I represent parts of Utah. We have got some of 
the most remote areas, they are very beautiful, but they are 
some of the most unpopulated areas of our nation. Zion's 
Canyon, Bryce, canyon lands. You could include Yellowstone 
National Park in this map as well. And yet, using Yellowstone 
as an example, naturally occurring ozone, 66 parts per billion, 
which is above what some of the proposed standards are being 
considered. And I guess I would just ask you, are you aware 
that some of the most remote, and in some cases pristine parks 
and parts of the country will have ozone that exceeds the range 
of this proposed standard?
    Ms. McCarthy. There is no proposed standard at this point, 
Congressman, let us just make sure that people aren't confused 
by that. But I would also say that I know the Science Advisory 
Board is looking at this issue with the staff so they can 
establish some recommendations to me moving forward----
    Mr. Stewart. Yeah.
    Ms. McCarthy. --and we can take a look at these issues.
    Mr. Stewart. And I appreciate--okay, maybe there isn't a 
proposed standard. Maybe this is one of those issues that 
depends on what the meaning of the word is is, and we could go 
back to very technical definitions, but there is certainly some 
consideration of a standard of 60 parts per billion, would you 
agree with that?
    Ms. McCarthy. I honestly do not know whether that is part 
of the consideration----
    Mr. Stewart. Okay.
    Ms. McCarthy. --that the Science Advisory Board will advise 
me on.
    Mr. Stewart. Okay. In hearings that I chaired earlier this 
spring, we were very clearly told that that was the standard 
that they were considering. And, in fact, that they were not 
only considering, it was one that they were leaning towards, 
and we expected it to be the new proposed standard.
    Ms. McCarthy. Okay.
    Mr. Stewart. I guess I would just conclude with this, my 
time being ended, and I wish I had more time, but there is 
nothing that these Western states can do to achieve that kind 
of standard. It will have great economic cost. By the EPA's own 
estimate, $90 billion. By some estimates, it may be 10 times 
that amount. And I would love to talk to you another time about 
just the wisdom, or the sanity, frankly, forget wisdom, just 
the sanity of the EPA proposing a standard that is impossible 
to meet, that would be incredibly expensive. And, once again, 
coming back to my opening statement, and why that generates so 
much suspicion----
    Ms. McCarthy. Yeah.
    Mr. Stewart. --and so much ill will in the body politic of 
the American people. So, with that, thank you, Mr. Chairman, 
and I yield back my time.
    Chairman Smith. Thank you, Mr. Stewart. The gentleman from 
Oklahoma, Mr. Bridenstine, is recognized for his questions. 
Sorry. He is not here. We will go to the gentleman from Texas, 
Mr. Stockman.
    Mr. Stockman. Well, hi, Ms. McCarthy. I am over here.
    Ms. McCarthy. Thank you.
    Mr. Stockman. I know, we are kind of jumping around. I 
think, though, you earlier gave me my favorite tweet of the 
day, which is, I am lucky enough--really? The quote is from 
you, I love it. It says, I am lucky enough not to have to sign 
up for Obamacare. That is wonderful. I wish my constituents 
could say the same.
    Ms. McCarthy. I actually think I was referring to I am 
lucky enough to have access to good health care, which the----
    Mr. Stockman. I still will take your quote----
    Ms. McCarthy. --Affordable Care Act----
    Mr. Stockman. --from the record.
    Ms. McCarthy. --will expand.
    Mr. Stockman. I wrote it down. It is really good. You said 
also in your testimony there was $2 billion in new jobs from 
your EPA. I want to point out that one facility alone in my 
district is a $7 billion--$7 billion in new construction, 
representing 13,000 jobs, and your administration is saying, 
because of the two week furlough, that it is going to take many 
more months to look at the permits. And I would request that, 
given the circumstances of our poor economy, and the fact that 
this needs to be done, it is meeting, I believe, all the EPA 
requirements, I would ask that you, and I will follow up with 
you, that you look at this and expedite it. It is 12,000 jobs. 
That is a lot of jobs.
    Ms. McCarthy. I am sorry----
    Mr. Stockman. And I just----
    Ms. McCarthy. --what kind of permit are we talking about?
    Mr. Stockman. EPA permit. It has been in your office, it 
has been sitting there. They have followed all the rules and 
regulations.
    Ms. McCarthy. I am happy to follow up.
    Mr. Stockman. I would appreciate it. There is also another 
plant that wants to export coal, so it won't be burned here, in 
my district. Altogether we have $52 billion that is being held 
up by the EPA, which, by the way, is more than the sequester. I 
am just saying to you that there is a lot of jobs in my 
district that is dependent, unfortunately, by your decisions, 
and I would like to give the information to you so we can 
facilitate the jobs that I know this President wants. He is the 
jobs president, and I really want to help him out in doing 
that.
    And this much activity in our district, which, Texas, as 
you probably know, represents almost 50 percent of all the jobs 
in the United States that are created. And in my district, we 
have had 30,000 people move into our district. There has been 
over a million wells fracked, as you know. There has been a lot 
of fracking. And there is a general history in this United 
States of people independently drilling for oil and producing 
products that this nation relies on. We are going to produce 
more oil than Saudi Arabia, and I think it is because of the 
independence and the drive of this American spirit.
    I just want the boot off the neck of the Americans so we 
can see a future where we have independence from the Middle 
East. This has great implications on our foreign policy, great 
implications on people's future. And I am real frustrated when 
I come back to my district, and I have people coming to my town 
hall meetings and saying, we want the jobs. And I have to tell 
them, I am sorry, but someone from the EPA is not letting us 
have the jobs. I am just begging you, please, open your heart 
up, get these permits done. They have done the work. They have 
complied with all the regulations. I don't see what it is--for 
two weeks they said we shut down the government. It shouldn't 
take months to recuperate the two weeks that is lost.
    And, I don't know, I even have a plant, that is not in my 
district, but a lead plant. Now all the lead plants are closed 
in the United States. They were willing to spend $100 million 
upgrading the lead plant. Now the Chinese are going to produce 
the lead, so now we are not going to have the lead for the 
Americans to put on their, you know, when you get X-rays, they 
will come from China. The batteries, the lead will be coming 
from there.
    I am really frustrated that we have so much opportunity in 
this country, and again, and again, and again, it comes back to 
your administration, where I hear, okay, it is locked up there, 
it is locked up there, it is locked up there. And I go to town 
hall meetings--I would love for you to come with me, and I will 
invite you to a town hall meeting where we can share the 
podium, and hear from the people individually who are losing 
their jobs because we can't get permits.
    And I am troubled that, again, time and time again, I can't 
get any satisfaction, quoting from The Rolling Stones, of 
course, from your administration. So if we could work 
together----
    Ms. McCarthy. --to sing.
    Mr. Stockman. Yeah.
    Ms. McCarthy. I appreciate it.
    Mr. Stockman. Go for it. But if we could work together on 
this, I would appreciate it. And I will welcome you to any town 
hall meeting.
    Ms. McCarthy. You know, this is an issue that, frankly, I 
just have not heard for a long time. I think we have been 
trying to do our best to expedite permits as much as we can, 
knowing the economic implications of that. So if you do have 
concerns, we really should tackle them together.
    Mr. Stockman. I appreciate it. Thank you. I have got one 
thing I want to add.
    Ms. McCarthy. Yeah?
    Mr. Stockman. This is for my colleague, who wanted to 
clarify, Dana Rohrabacher. It is my quick clarification on the 
CRS report, and place this into the record, if I can, Mr. 
Chairman.
    Chairman Smith. Okay. Without objection.
    Mr. Stockman. Okay. Thank you.
    Chairman Smith. Okay. Thank you, Mr. Stockman. The 
gentleman from Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Thank you, Mr. Chairman. Madam Administrator, 
throughout this hearing you have touted the importance of 
transparency, and I agree. Consistent with your promise of 
transparency, on September 30, 2013 your agency announced it 
would hold public listening sessions on reducing carbon 
emissions from existing power plants to consider the public 
concerns ahead of development of the EPA rules. But I was 
disappointed to learn that all of the EPA's 11 announced 
sessions are in major metropolitan areas, and none of these 
listening sessions would be in the 10 states most reliant on 
coal.
    In November, our Congressional delegation sent you a 
letter, informing you that Kentucky's already lost more than 
6,200 coal jobs in just the last two years, reducing the 
state's coal employment to its lowest level since the 
Commonwealth began keeping statistics in 1927. Unfortunately, 
these job losses are forecasted to continue, to increase, as 
additional EPA regulations targeting coal come online. In this 
letter, we requested that you hold listening sessions in 
Kentucky for the sake of openness and transparency that you 
have espoused today. In the eyes of Kentuckians and American 
people, will you commit to us today that the EPA will hold 
listening sessions in the Commonwealth of Kentucky, and other 
similar states, like North Dakota, where my colleague, Mr. 
Cramer is from, that are reliant on coal production and coal 
fired electricity as you seek public comment?
    Ms. McCarthy. Well, Congressman, we received a number of 
requests for additional listening sessions. I would like to 
explain to you, those 11 sites are actually our regional 
offices, because it is----
    Mr. Massie. Certainly you----
    Ms. McCarthy. --helps us----
    Mr. Massie. We appreciate that, and we appreciate that you 
have held before listening sessions outside of your offices. I 
think you should get outside of the office, you know, go out 
and see the people you are going to affect once in a while. And 
hopefully you certainly must realize that if you fail to hold 
these listening sessions on greenhouse gas regulations in the 
states whose economies most depend on the coal industry and 
coal fired electricity, this will be perceived as an effort to 
avoid negative public opinion----
    Ms. McCarthy. Well, there----
    Mr. Massie. --or to ignore the adverse effects of these 
regulations.
    Ms. McCarthy. I----
    Mr. Massie. You realize that is going to be perceived that 
way if you don't hold these hearings?
    Ms. McCarthy. Well, I think people should recognize that 
this is even before we are proposing, never mind entering into 
the rigorous public----
    Mr. Massie. Can you commit----
    Ms. McCarthy. --comment process----
    Mr. Massie. --today----
    Ms. McCarthy. --without making----
    Mr. Massie. --to hold this in Kentucky?
    Ms. McCarthy. There is also opportunities for individuals 
to----
    Mr. Massie. Okay, I can't let you take all of my time if 
you won't answer the question. You know, smog and most other 
air pollution is a function of urban concentration. In fact, 
the EPA has recognized 66 of 3,000 counties in the United 
States as having air quality issues. Those are urban issues, 
for the most part. So residents of rural areas, like myself, 
who rely on wood heat as an affordable, abundant, renewable, 
and you will like this, carbon neutral source of heat energy, 
are perpetually perplexed by the EPA's fascination with 
regulating this form of heat, since it is primarily a rural 
form of heat. And we believe that a one-sized fits all rule on 
wood heat that comes from Washington D.C., from bureaucrats who 
have never experienced the warmth of the heat that comes from 
wood, or maybe even the exercise of collecting it themselves, 
really aren't qualified to regulate our source of energy, 
especially when they are taking away our other sources of 
energy.
    Let me read for you from the EPA's website on these new 
rules that are being proposed. Or maybe this is pre-proposal, 
but this is certainly from your website. EPA--quote,``EPA is 
revising the new source performance standards for new 
residential wood heaters.'' I will skip some of it. ``This 
action is expected to include the following new residential 
wood heating appliances, wood heaters, pellet stoves, hydronic 
heaters'', and the list goes on.
    Ms. McCarthy. Um-hum.
    Mr. Massie. And then it finishes with this, ``These 
standards would apply only to new residential wood heaters, and 
not to existing residential wood heating appliances.''
    Ms. McCarthy. Right.
    Mr. Massie. Is that your impression, that these rules would 
just apply to new heaters?
    Ms. McCarthy. That is all they do apply to, yes.
    Mr. Massie. Okay. So you can promise us----
    Ms. McCarthy. It would apply to----
    Mr. Massie. You can promise us today that if Americans like 
the wood stove they have, they can keep it, period?
    Ms. McCarthy. This particular part of the Clean Air Act 
does not address existing for this--these types of pollutants. 
And the only thing----
    Mr. Massie. I have one more question, and only 30 seconds 
to ask, but I am glad that you can assure us we can keep that 
if we like it, period, and I hope that is a promise you can 
keep. There is one other issue that affects rural America that 
just has us scratching our heads. I hope it is an urban legend. 
Is anybody in the EPA really looking at regulating cow 
flatulence?
    Ms. McCarthy. Not that I am aware of.
    Mr. Massie. Okay. Yeah, because we have heard that on 
farms, are aware of that, at the USDA?
    Chairman Smith. Pardon me? You have heard it what?
    Mr. Massie. That the methane emissions from cattle, can 
you----
    Ms. McCarthy. Yeah.
    Mr. Massie. --assure us today that you are not----
    Ms. McCarthy. I am not looking----
    Mr. Massie. --investigating that?
    Ms. McCarthy. --at that.
    Mr. Massie. Nobody in the EPA is? Thank you very----
    Ms. McCarthy. Not that I am----
    Mr. Massie. --much.
    Ms. McCarthy. --aware of.
    Mr. Massie. Thank you. And I yield back.
    Chairman Smith. Thank you, Mr. Massie. The gentlewoman from 
Wyoming, Ms. Lummis, is recognized.
    Mrs. Lummis. Thank you, Mr. Chairman. Welcome, 
Administrator.
    Ms. McCarthy. Thank you.
    Mrs. Lummis. In your agency's recently re-proposed New 
Source Performance Standards for power plants----
    Ms. McCarthy. Yeah.
    Mrs. Lummis. --you set levels for coal fired plants based 
on the use of carbon capture and sequestration technologies. 
You did not require that same technology for gas fired power 
plants.
    Ms. McCarthy. Yes.
    Mrs. Lummis. By requiring CCS for coal units only, aren't 
you applying a standard that is higher regarding the carbon 
that is emitted from coal generated power? It just sounds to me 
like this is not an all of the above energy plan. It singles 
out coal for punitive treatment. Can this really be defended as 
a transparent and equitable application of the Clean Air Act? I 
like the administration, that you have testified, supports 
opportunities in natural gas. So do I, and I support them also 
for new coal fired plants, and coal-to-liquid. All the reasons 
that EPA gives for declining to find CCS technologies to be the 
best system of emission reduction for gas fired units apply 
with equal force to coal fired units. So why require it for 
coal?
    It strikes me that the answer to that question is to set a 
precedent. EPA is under a consent decree to issue New Source 
Performance Standards on greenhouse gases for refineries in the 
near future. Will that rules best system of emission reduction 
also require implementing technology that is unproven on a 
commercial scale? That seems to be the new definition of 
adequately demonstrated. When EPA requires a technology for new 
coal plants that is not yet in commercial operation, what is to 
stop it from doing the same for other sources of carbon?
    I might add that earlier, in response to Mr. Neugebauer, 
you said that CCS technology is ready, according to the DOE. 
But DOE was in front of this committee in the summer, and they 
couldn't give us a date for the technology to be ready. And 
then former Secretary of Energy McConnell was here two weeks 
ago, and he testified that commercial CCS technology currently 
is not available to meet EPA's proposed rule. So our problem is 
this committee has received conflicting testimony from the 
former Secretary of DOE at your sister agency.
    I find it interesting that the EPA claims that, regardless 
of this new rule, no one plans to build traditional coal 
plants. So does this rule achieve any of the EPA's carbon 
reduction goals? By its own admission, EPA is requiring carbon 
reducing technology for plants that will never be built. But, 
at the same time, it is requiring no reductions from new 
natural gas plants, even though they are being built in greater 
numbers than ever before. This doesn't make sense to me, and I 
just want to ask if it makes sense to you.
    Ms. McCarthy. What--could I address the issues that you 
have raised?
    Mrs. Lummis. Yes.
    Ms. McCarthy. Okay. In terms of why we wouldn't be 
proposing CCS on natural gas, we do not have the kind of wealth 
of data that we have for the demonstration of CCS on natural 
gas as we do on coal. We know they run differently. We know the 
technology is different. We know the--that the gas stream for 
natural gas is different. We did not have the data available to 
be able to propose CCS on natural gas. We went with what we 
knew to be demonstrated technology moving forward. We do have 
data on the coal side that addresses the requirements we have 
for being robust. But we will look at comments that come in.
    Relative to DOE, I think the DOE employees have been--and 
staff, as well as the Secretary, have been very supportive of 
the way we are looking at the data in this industry sector 
moving forward.
    Mrs. Lummis. Thanks. I want to squeeze in one more----
    Ms. McCarthy. Okay.
    Mrs. Lummis. --question before I run out of time.
    Ms. McCarthy. Okay, sorry.
    Mrs. Lummis. That is okay. Let me ask you--this is kind of 
a yes or no question. Is it EPA's view that Section 111(d) of 
the Clean Air Act gives states primacy in the development and 
implementation of new source performance standards for existing 
power plants?
    Ms. McCarthy. Yes, it is state implementation plans that 
need to be developed.
    Mrs. Lummis. Thank you. So now you have three seconds to 
answer my previous question.
    Ms. McCarthy. Well, the only other one I wanted to hit was 
this idea that we are not going to be making any progress 
moving forward because most of them are natural gas. The--what 
we are trying to do is make sure that new facilities, like 
power plants, that are around for 60 or 70 years take advantage 
of the technologies available to them today so that they can be 
part of the mix moving forward.
    Mrs. Lummis. Thank you.
    Ms. McCarthy. Coal is important now. It will be in the 
future.
    Mrs. Lummis. Thank you very much.
    Chairman Smith. Thank you, Ms. Lummis. The gentleman from 
North Carolina, Mr. Cramer, is recognized for questions.
    Mr. Cramer. I am sorry, did you say from North Dakota?
    Chairman Smith. Yes.
    Mr. Cramer. Yeah, I thought you did.
    Chairman Smith. I thought I said North Dakota.
    Mr. Cramer. Thank you, Mister----
    Chairman Smith. I misspoke if I said anything other than 
North Dakota.
    Mr. Cramer. That is fine. Thank you for being here today, 
and I want to ask some questions about the hydraulic fracturing 
study. But before I do that, I want to follow up on Mr. 
Massie's invitation to--for you to go to Kentucky and hold a 
listening session on your way to North Dakota to hold a 
listening session on the new source performance standards. I 
would like to submit my letter of invitation to you of October 
18 into the record, if I could, Mr. Chairman?
    And it just seems like, in the spirit of transparency, that 
having these 11 listening sessions in the cities where you, 
granted, have regional offices, is okay as far as it goes, but 
what a wonderful opportunity it would be to add some more 
listening sessions. And so I would really love to have you 
commit to considering these other places, including Bismarck, 
North Dakota.
    Ms. McCarthy. I appreciate that. And I just want to tell 
you that that is not the extent of what we are doing. Those are 
the major listening sessions, but the regional offices and our 
administrators are really branching out to the individual 
states.
    Mr. Cramer. And I understand that, but I also understand 
that, in a place like North Dakota, where there are 17,000 jobs 
at stake, $3-1/2 billion toward our economy is at stake, and 
where there are a whole bunch of really wonderful smart experts 
and scientists who work in this every single day, could provide 
lots of good information to the EPA, that a better way might be 
to hold a listening session there in public view, for everybody 
to participate. So I would appreciate--in fact, I would love it 
if you would just commit. We will work out the details later as 
to, you know, what time and what cities, and all of that.
    But I also want to get into the hydraulic fracturing study 
that you are engaged in, because I have some concerns about it, 
especially the study designed and some of the goals of the 
study. Because, as we have discussed in this committee 
previously with other witnesses, this idea of the EPA searching 
for what is possible without attention to what is probable is 
problematic I think from a real scientific standpoint, because 
one of the primary goals of the study--stated primary goals of 
the study is to answer questions, like, what are the possible 
impacts of hydraulic fracturing, fluid surface spills, on--near 
well pads, on drinking water resources, end quote.
    And it appears, in fact, the EPA's independent science 
advisory board shares this concern as well. One SAB expert 
comment, ``There is no quantitative risk assessment included in 
EPA's research effort. Thus, the reader has no sense of how 
risky any operation may be in ultimately impacting drinking 
water. This is also a significant limitation of the work.'' Is 
the mere possibility of an event occurring sufficient to 
justify regulatory action, in your mind?
    Ms. McCarthy. I actually think that this is purely a 
scientific research project so we understand the potential 
implications. It is not a regulatory decision.
    Mr. Cramer. Sure, but again, the possible versus probable, 
as what is the standard, then, of probability before you 
continue with more years and more resources, given the fact 
that hydraulic fracturing is not exactly a new technology? I 
mean, it is----
    Ms. McCarthy. No, it has been around----
    Mr. Cramer. --been around for----
    Ms. McCarthy. --for a while.
    Mr. Cramer. --over half a----
    Ms. McCarthy. Yeah.
    Mr. Cramer. --century.
    Ms. McCarthy. Yeah.
    Mr. Cramer. So, I mean, is there a line--and you certainly 
can understand why industry and states might be concerned that 
we are down this path, with the mere possibility as a standard, 
and the uncertainty that that creates in the investment 
community as we try to become more energy security in this 
country.
    Ms. McCarthy. My understanding is that this is a number of 
research projects that are looking at the potential for impact 
on water supplies. It is the first step----
    Mr. Cramer. I understand----
    Ms. McCarthy. --in looking----
    Mr. Cramer. --but, in fact----
    Ms. McCarthy. --at this in a more comprehensive way so we 
can be sure we are doing things safe and----
    Mr. Cramer. While I agree that this is one, and I guess 
part of something more comprehensive, because your Office of 
Science Policy director, Dr. Hoffman, in May of last year, 
stated that the agency was doing ``a pretty comprehensive look 
at all the statutes to determine where holes may allow for 
additional Federal oversight.'' So is this study part of that 
comprehensive look for holes and opportunities to regulate 
further?
    Ms. McCarthy. My understanding is, and we can certainly 
follow up, is that this is purely a research project. It is 
not, at this point, talking about what laws we might utilize, 
or what regulations we might want to do.
    Mr. Cramer. Well, have you found any holes, or do you know 
of any regulatory holes that might present an opportunity for 
further regulation by the EPA? Because, you know, that standard 
is rather frightening in North Dakota.
    Ms. McCarthy. I--we are purely looking at whether or not 
there are implications that we need to understand from 
hydraulic fracturing both--in this case on water quality. That 
is it.
    Mr. Cramer. All right. Thank you, and my time is expired, 
Mr. Chairman.
    Chairman Smith. Thank you, Mr. Cramer. The gentleman from 
Florida, Mr. Posey, is recognized for his questions.
    Mr. Posey. Thank you, Mr. Chairman, and thank you, Madam 
Administrator, for your testimony today, and it has been 
largely direct responses, and I really appreciate that.
    Ms. McCarthy. Thank you.
    Mr. Posey. Following up on some of the questions that we 
had earlier today concerning science based management, how many 
Ice Ages have we had on this planet, do you know?
    Ms. McCarthy. I am sorry, sir, I don't.
    Mr. Posey. Okay. I have read different things. Some say 
three, some say five. Do you think we have had Ice Ages before?
    Ms. McCarthy. I am quite sure of reading about those, but I 
am not a scientist, and I don't want to pretend to be for you, 
sir. But we can get our scientists to respond, if you want a 
more direct----
    Mr. Posey. Yeah, I really would like that. You know, 
normally you can't have seamless Ice Ages. You must have a 
warming period between the Ice Ages, and I was just wondering 
if you happen to know what the temperature was here on Earth 
between the last two Ice Ages.
    Ms. McCarthy. I am sorry, sir, I can't answer those 
questions.
    Mr. Posey. Okay. If I told you the Earth was 30 degrees 
warmer before the last Ice Age, would that surprise you, or----
    Ms. McCarthy. It would not influence my decision, in terms 
of listening to the science and the consensus around climate. I 
leave the science to the scientists.
    Mr. Posey. But don't you think the history of the Earth 
should have some bearing on science?
    Ms. McCarthy. I am sure that it does.
    Mr. Posey. But----
    Ms. McCarthy. I just don't want to pretend that I am a 
scientist and have that discussion with you, sir, because I am 
not. I do listen to the scientists, and I look--listen to the 
consensus that is being drawn.
    Mr. Posey. Well, I listen to scientists too, and I don't 
claim to be a scientist, but I don't want to put my head in the 
sand and----
    Ms. McCarthy. Um-hum.
    Mr. Posey. --ignore what science----
    Ms. McCarthy. I am not.
    Mr. Posey. --is inconvenient.
    Ms. McCarthy. I am listening.
    Mr. Posey. And now I was just wondering what impact you 
thought carbon emissions had on previous global warming between 
Ice Ages?
    Ms. McCarthy. The information that I have available to me 
relates to all of the work that is done by the number of 
scientists looking at the climate issues. And I pay attention 
to that, and I will apply the science in decisions moving 
forward. I am not either comfortable or qualified to have a 
science discussion with you on these issues.
    Mr. Posey. Do you see the promulgation of any rules that 
would enact a carbon tax in the future?
    Ms. McCarthy. Say that again, sir?
    Mr. Posey. Do you see the promulgation of any rules that 
would enact a carbon tax for this country in the future?
    Ms. McCarthy. Only if Congress provides a--provides that 
mechanism, no.
    Mr. Posey. Okay. Mr. Chairman, I can't get my questions 
answered, so I guess I am pretty much finished and yield back.
    Chairman Smith. Thank you, Mr. Posey. I don't believe we 
have any other members with questions, so, Administrator 
McCarthy, thank you for your presence today. And we may have 
additional questions that would be submitted to you in writing. 
We hope you will reply to those in the next couples of weeks.
    Ms. McCarthy. Mr. Chairman, can I ask you one favor?
    Chairman Smith. Of course.
    Ms. McCarthy. I know you asked me a lot of information in 
the front about the subpoena issues.
    Chairman Smith. Yes.
    Ms. McCarthy. I want to make sure that we both understood 
one another, so if we could meet afterwards? I want to make 
sure that I gave perfectly correct answers, and that our 
expectations are the same on what you are looking for, and 
whether or not we have complied with that, and what you are 
looking for next.
    Chairman Smith. Okay.
    Ms. McCarthy. I want to be very respectful of you, and the 
wishes of this committee.
    Chairman Smith. Thank you. Well, I am somewhat encouraged 
by some of your answers today, and I hope you will give us the 
data that we would like to have, and that we would like to have 
independently verified. I am not sure it is true or not, but 
didn't you once tell us, if you like it, you can have it? I am 
just teasing. Thank you for your appearance today. We stand 
adjourned.

    [Whereupon, at 12:35 p.m., the Committee was adjourned.]
    
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
                   
Responses by The Honorable Gina McCarthy

[GRAPHIC] [TIFF OMITTED]

                        Appendix II

                         ----------                              


               Additional Material for the Record



   Submitted statement of Representative Elizabeth H. Esty, Member, 
               Committee on Science, Space and Technology
               
[GRAPHIC] [TIFF OMITTED] 

          Report submitted by Representative Dana Rohrabacher
          
[GRAPHIC] [TIFF OMITTED] 

          Letter submitted by Representative Randy Neugebauer
          
[GRAPHIC] [TIFF OMITTED] 

            Letters submitted by Representative Mark Takano
            
[GRAPHIC] [TIFF OMITTED] 
                                 <all>
</pre></body></html>
